<html>
<title> - ENSURING APPROPRIATE REGULATORY OVERSIGHT OF BROKER-DEALERS AND LEGISLATIVE PROPOSALS TO IMPROVE INVESTMENT ADVISER OVERSIGHT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                    ENSURING APPROPRIATE REGULATORY
                      OVERSIGHT OF BROKER-DEALERS
                  AND LEGISLATIVE PROPOSALS TO IMPROVE
                      INVESTMENT ADVISER OVERSIGHT

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON CAPITAL MARKETS AND

                    GOVERNMENT SPONSORED ENTERPRISES

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           SEPTEMBER 13, 2011

                               ----------                              

       Printed for the use of the Committee on Financial Services

                           Serial No. 112-58

    ENSURING APPROPRIATE REGULATORY OVERSIGHT OF BROKER-DEALERS AND 
     LEGISLATIVE PROPOSALS TO IMPROVE INVESTMENT ADVISER OVERSIGHT





                    ENSURING APPROPRIATE REGULATORY
                      OVERSIGHT OF BROKER-DEALERS
                  AND LEGISLATIVE PROPOSALS TO IMPROVE
                      INVESTMENT ADVISER OVERSIGHT

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON CAPITAL MARKETS AND

                    GOVERNMENT SPONSORED ENTERPRISES

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 13, 2011

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 112-58



                  U.S. GOVERNMENT PRINTING OFFICE
72-599                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0b7a0bf90b3a5a3a4b8b5bca0feb3bfbdfe">[email&#160;protected]</a>  


                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                   SPENCER BACHUS, Alabama, Chairman

JEB HENSARLING, Texas, Vice          BARNEY FRANK, Massachusetts, 
    Chairman                             Ranking Member
PETER T. KING, New York              MAXINE WATERS, California
EDWARD R. ROYCE, California          CAROLYN B. MALONEY, New York
FRANK D. LUCAS, Oklahoma             LUIS V. GUTIERREZ, Illinois
RON PAUL, Texas                      NYDIA M. VELAZQUEZ, New York
DONALD A. MANZULLO, Illinois         MELVIN L. WATT, North Carolina
WALTER B. JONES, North Carolina      GARY L. ACKERMAN, New York
JUDY BIGGERT, Illinois               BRAD SHERMAN, California
GARY G. MILLER, California           GREGORY W. MEEKS, New York
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
SCOTT GARRETT, New Jersey            RUBEN HINOJOSA, Texas
RANDY NEUGEBAUER, Texas              WM. LACY CLAY, Missouri
PATRICK T. McHENRY, North Carolina   CAROLYN McCARTHY, New York
JOHN CAMPBELL, California            JOE BACA, California
MICHELE BACHMANN, Minnesota          STEPHEN F. LYNCH, Massachusetts
THADDEUS G. McCOTTER, Michigan       BRAD MILLER, North Carolina
KEVIN McCARTHY, California           DAVID SCOTT, Georgia
STEVAN PEARCE, New Mexico            AL GREEN, Texas
BILL POSEY, Florida                  EMANUEL CLEAVER, Missouri
MICHAEL G. FITZPATRICK,              GWEN MOORE, Wisconsin
    Pennsylvania                     KEITH ELLISON, Minnesota
LYNN A. WESTMORELAND, Georgia        ED PERLMUTTER, Colorado
BLAINE LUETKEMEYER, Missouri         JOE DONNELLY, Indiana
BILL HUIZENGA, Michigan              ANDRE CARSON, Indiana
SEAN P. DUFFY, Wisconsin             JAMES A. HIMES, Connecticut
NAN A. S. HAYWORTH, New York         GARY C. PETERS, Michigan
JAMES B. RENACCI, Ohio               JOHN C. CARNEY, Jr., Delaware
ROBERT HURT, Virginia
ROBERT J. DOLD, Illinois
DAVID SCHWEIKERT, Arizona
MICHAEL G. GRIMM, New York
FRANCISCO ``QUICO'' CANSECO, Texas
STEVE STIVERS, Ohio
STEPHEN LEE FINCHER, Tennessee

                   Larry C. Lavender, Chief of Staff
  Subcommittee on Capital Markets and Government Sponsored Enterprises

                  SCOTT GARRETT, New Jersey, Chairman

DAVID SCHWEIKERT, Arizona, Vice      MAXINE WATERS, California, Ranking 
    Chairman                             Member
PETER T. KING, New York              GARY L. ACKERMAN, New York
EDWARD R. ROYCE, California          BRAD SHERMAN, California
FRANK D. LUCAS, Oklahoma             RUBEN HINOJOSA, Texas
DONALD A. MANZULLO, Illinois         STEPHEN F. LYNCH, Massachusetts
JUDY BIGGERT, Illinois               BRAD MILLER, North Carolina
JEB HENSARLING, Texas                CAROLYN B. MALONEY, New York
RANDY NEUGEBAUER, Texas              GWEN MOORE, Wisconsin
JOHN CAMPBELL, California            ED PERLMUTTER, Colorado
THADDEUS G. McCOTTER, Michigan       JOE DONNELLY, Indiana
KEVIN McCARTHY, California           ANDRE CARSON, Indiana
STEVAN PEARCE, New Mexico            JAMES A. HIMES, Connecticut
BILL POSEY, Florida                  GARY C. PETERS, Michigan
MICHAEL G. FITZPATRICK,              AL GREEN, Texas
    Pennsylvania                     KEITH ELLISON, Minnesota
NAN A. S. HAYWORTH, New York
ROBERT HURT, Virginia
MICHAEL G. GRIMM, New York
STEVE STIVERS, Ohio
ROBERT J. DOLD, Illinois


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    September 13, 2011...........................................     1
Appendix:
    September 13, 2011...........................................    47

                               WITNESSES
                      Tuesday, September 13, 2011

Dwyer, William E. III, Chairman, Financial Services Institute 
  (FSI)..........................................................    10
Ehinger, Ken, President and Chief Executive Officer, M Holdings 
  Securities, Inc., on behalf of the Association for Advanced 
  Life Underwriting (AALU).......................................    12
Headley, Terry, President, National Association of Insurance and 
  Financial Advisors (NAIFA).....................................    13
Irwin, Steven D., Pennsylvania Securities Commissioner, on behalf 
  of the North American Securities Administrators Association, 
  Inc. (NASAA)...................................................    15
Ketchum, Richard G., Chairman and Chief Executive Officer, 
  Financial Industry Regulatory Authority (FINRA)................    17
Roper, Barbara, Director of Investor Protection, Consumer 
  Federation of America (CFA)....................................    19
Taft, John, Chairman, the Securities Industry and Financial 
  Markets Association (SIFMA)....................................    21
Tittsworth, David G., Executive Director and Executive Vice 
  President, Investment Adviser Association (IAA)................    23

                                APPENDIX

Prepared statements:
    Hinojosa, Hon. Ruben.........................................    48
    Luetkemeyer, Hon. Blaine.....................................    49
    Dwyer, William E. III........................................    51
    Ehinger, Ken.................................................    67
    Headley, Terry...............................................    80
    Irwin, Steven D..............................................    89
    Ketchum, Richard G...........................................   101
    Roper, Barbara...............................................   109
    Taft, John...................................................   139
    Tittsworth, David G..........................................   229

              Additional Material Submitted for the Record

Garrett, Hon. Scott:
    Written statement of The American College....................   265
    Written statement of the American Council of Life Insurers...   268
    Written statement of the Association of Institutional 
      INVESTORS..................................................   297
    Written statement of The Bond Dealers of America.............   306
    Written statement of The Financial Services Roundtable.......   312
    Written statement of the Independent Insurance Agents & 
      Brokers of America.........................................   321
    Written statement of the Investment Company Institute........   324
    Written statement of the Managed Funds Association...........   333
    Written statement of the National Association of Independent 
      Broker/Dealers.............................................   344
Hensarling, Hon. Jeb:
    Written responses to questions submitted to Ken Ehinger......   346
    Written responses to questions submitted to Terry Headley....   350
    Written responses to questions submitted to Steven D. Irwin..   355
    Written responses to questions submitted to Richard G. 
      Ketchum....................................................   356
    Written responses to questions submitted to Barbara Roper....   359
    Written responses to questions submitted to John Taft........   361
    Written responses to questions submitted to David G. 
      Tittsworth.................................................   363
    Written statement of the Association of Institutional 
      INVESTORS..................................................   364
Hinojosa, Hon. Ruben:
    Written statement of the Financial Planning Coalition........   373
Schweikert, Hon. David:
    Written responses to questions submitted to Barbara Roper....   492
Waters, Hon. Maxine:
    Written statement of Mercer Bullard, AARP Public Policy 
      Institute..................................................   494
    Written statement of the Financial Planning Coalition........   531
    Letter to Representative Carolyn McCarthy from the North 
      American Securities Administrators Association, Inc........   546
    Letter to Labor Secretary Hilda Solis, CFTC Chairman Gary 
      Gensler, and SEC Chairman Mary L. Schapiro from the New 
      Democrat Coalition.........................................   555
    Written statement of the Project on Government Oversight.....   559


                    ENSURING APPROPRIATE REGULATORY
                      OVERSIGHT OF BROKER-DEALERS
                  AND LEGISLATIVE PROPOSALS TO IMPROVE
                      INVESTMENT ADVISER OVERSIGHT

                              ----------                              


                      Tuesday, September 13, 2011

             U.S. House of Representatives,
                Subcommittee on Capital Markets and
                  Government Sponsored Enterprises,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2128, Rayburn House Office Building, Hon. Scott Garrett 
[chairman of the subcommittee] presiding.
    Members present: Representatives Garrett, Schweikert, 
Royce, Biggert, Neugebauer, Campbell, Pearce, Posey, 
Fitzpatrick, Hayworth, Hurt, Grimm, Stivers, Dold; Waters, 
Sherman, Hinojosa, Lynch, Miller of North Carolina, Maloney, 
Perlmutter, Donnelly, Carson, Himes, Peters, Green, and 
Ellison.
    Ex officio present: Representative Bachus.
    Also present: Representative McCarthy of New York.
    Chairman Garrett. Good morning. The Subcommittee on Capital 
Markets and Government Sponsored Enterprises is called to 
order.
    I would like to seek unanimous consent for the gentlelady 
from New York, who is not on this subcommittee, to be able to 
participate in today's hearing. Seeing no objections, we 
welcome the gentlelady with us to the subcommittee.
    We have a fairly large panel. We managed to do it somehow 
without the extra kiddie table at the end, so you are all 
squeezed in there. Sorry about that. But welcome to all of you.
    We are going to begin the process. I understand the ranking 
member is on her way, but we will begin with opening statements 
and then proceed from there to the panel. With that, I yield 
myself 3 minutes for an opening statement.
    The SEC, I think most people here will agree, has a lot on 
its plate to deal with. Some would argue that it has too much 
on its plate. This is one of the reasons we see a legislative 
proposal such as the one from Chairman Bachus, who is with us 
here today, which would shift oversight of retail investment 
advisers from the SEC to an SRO.
    With too much on the plate over at the SEC, some of the 
basics arguably are not getting done. For instance, the SEC in 
recent history has been examining investment advisers 
approximately once every decade. Because of this, we know that 
there have been crooks out there such as Bernie Madoff and 
others who have had a greater chance to defraud the innocent 
investors. The frequency of examinations, of course, is not the 
only consideration. There are other things we can go into here. 
FINRA, for instance, also examined Madoff's broker-dealer unit 
more frequently than the SEC did, but unfortunately still 
missed the fraud that was there.
    Nevertheless, I look forward to a robust discussion this 
morning on Chairman Bachus' bill and what are the--it is in 
draft form, which means that today is a good opportunity to 
discuss the merits of it and any changes that might be 
necessary.
    Another concept the Commission should be mindful of, 
especially with its crowded agenda, is the appropriate use of 
their resources, which you often hear that they need more of. 
The Dodd-Frank Act requires an unprecedented avalanche of new 
rulemakings by the SEC. People can agree, or people can 
disagree with how many of them are needed or addressing actual 
problems, you have heard that discussion in the past, but they 
are required in Dodd-Frank and will require a large amount of 
the Commission's resources to get them all done and to get them 
all done right.
    Furthermore, the SEC has a history of having rulemakings, 
unfortunately, overturned in the courts. Just recently, for 
instance, the SEC had its proxy access rule basically vacated. 
Unfortunately, the rule was vacated after the SEC spent a lot 
of its resources, over 23,000 staff hours, on the rulemaking 
and subsequent litigation at a cost of around $2 million or 
$2.5 million. When a potential rulemaking on a uniform 
fiduciary standard is considered, the Commission, we believe, 
needs to thoughtfully and thoroughly consider the most prudent 
course of action that it should be taking.
    First, this would be undertaking a discretionary rulemaking 
at a time when the SEC is required to do so many other tasks. 
And remember, this is at the same time that they are only 
examining investment advisers, as I said, once about every 10 
years, every decade. Many would argue that more attention needs 
to be paid to get this done and other core tasks than 
additional discretionary tasks that they have been doing.
    Second, no one needs to be reminded here about the Federal 
Government's serious spending problems that fortunately, the 
Congress is now finally beginning to address. Additional 
resources for an agency that has tripled its budget in recent 
years basically is not an option.
    Finally, the SEC has already wasted, we would say, millions 
of dollars pursuing rules without doing the proper economic and 
cost-benefit analysis before the rules go out.
    So, until the SEC comes forward with a reason backed by 
credible and real data that a uniform fiduciary standard is 
necessary to address an actual problem, which is not produced 
in the study required by Dodd-Frank Section 913, I am not sure 
why such a rulemaking would be under consideration now or at 
any point.
    I thank the panel for coming today before this committee, 
and I look forward to what should be an interesting discussion 
and diverse opinion from this panel.
    With that, I yield to Mrs. Maloney for 3 minutes.
    Mrs. Maloney. Thank you, Mr. Chairman, and welcome to all 
eight witnesses today. I don't think we have ever had such a 
large panel, and it speaks to the importance of the oversight 
of investment advisers and broker-dealers. It is a very 
important part of this committee's work, and I am pleased that 
we are exploring this today.
    The committee has looked at scams or schemes in the past, 
especially in the wake of Madoff, and today we are looking at 
two specific issues that have emerged. The first issue is 
whether broker-dealers should be held to a higher standard of 
care than they currently are held to, and whether that standard 
should be harmonized with what investment advisers are held to.
    As it stands now, broker-dealers are required to suggest 
products that are suitable to their clients. Investment 
advisers, on the other hand, are required to suggest products 
that are in the best interests of their clients. The question 
is whether consumers will be better served if the standard for 
broker-dealers is elevated.
    The second issue is whether broker-dealers and investment 
advisers are adequately examined and supervised. We are all 
wondering on this committee how it is that Bernie Madoff was 
able to operate fraudulently for so long without anyone 
realizing it, with so many whistleblowers reporting it. Will 
more rigorous oversight and examination either on the part of 
the SEC, a new SRO or another entity prevent another Bernie 
Madoff? Who should be conducting these examinations, and how 
often should they be done? These are some of the questions that 
we are hoping to obtain answers to today.
    Last year's Dodd-Frank bill authorized studies on these 
important issues to be conducted by the SEC, both of which were 
completed in January, and the study recommended that the 
standard for broker-dealers be elevated to something akin to 
the standard for investment advisers, and the SEC has indicated 
that it will go forward with such a rule. While I do not oppose 
the SEC moving forward, I do want to make sure that sufficient 
economic impact analysis is done to ensure that consumers will 
benefit in the end, and I hope we will explore that today.
    The study also suggested three ways that Congress may move 
forward to address the issue of examinations: first, imposing 
user fees on SEC-registered investment advisers; second, 
authorizing one or more self-regulatory organizations, or SROs, 
to examine; and third, authorizing FINRA to examine dual 
registrants for compliance with the Advisers Act.
    Chairman Bachus, I understand, has put forward legislation 
that would codify the second of these three suggestions and 
would authorize an SRO to supplement the SEC's oversight of 
investment advisers.
    I think we can all agree that something needs to change, 
and that the status quo is not acceptable. So I hope the 
witnesses today will be able to comment on the various 
proposals and shed light on whether they think it is preferable 
to the other suggestions and the suggestions that the SEC made 
in their study.
    We have a lot of ground to cover today, Mr. Chairman, and 
thank you for calling this hearing. I yield back.
    Chairman Garrett. I thank the gentlelady.
    The chairman of the full Financial Services Committee, the 
gentleman from Alabama, is recognized for 4 minutes.
    Chairman Bachus. Thank you, Chairman Garrett, for convening 
this important hearing to examine Sections 913 and 914 of the 
Dodd-Frank Act. Section 913 of the Act gave authority to, but 
did not require, the SEC to create a new standard of care for 
broker-dealers. Even though the SEC has yet to provide Congress 
with any empirical data or economic analysis to justify a 
rulemaking on the standard of care for broker-dealers, the 
SEC's apparent plan is to push forward with rulemaking by 
recalling examiners and reassigning them to write these 
optional rules.
    It is questionable whether the SEC should undertake 
rulemaking for a new standard of care for broker-dealers at the 
expense of other statutory mandated rulemaking. If the SEC 
decides, however, to issue a proposal to implement Section 913, 
it must carefully act and comprehensively act to avoid 
disrupting an investor's relationship with his or her chosen 
investment professional. Furthermore, the Administration must 
coordinate disparate and potentially conflicting rulemaking 
efforts regarding the standard of care for investment 
professionals.
    The Labor Department's proposed rule to modify the existing 
definition of fiduciary status under ERISA appears to be moving 
forward even though it creates conflicting standards between 
advisers for investment accounts and advisers for retirement 
accounts and would make it illegal for swap dealers to enter 
into swaps with retirement plans. The SEC, the CFTC, and the 
Department of Labor must coordinate their efforts to minimize 
harm to investors. The last thing our economy needs is 
additional disruption or elimination of financial products and 
services currently available to American investors.
    Investment advisers and broker-dealers often provide 
indistinguishable services to retail customers, yet only 9 
percent of investment advisers are examined by the SEC or were 
examined by the SEC in 2010, compared to 44 percent of broker-
dealers. The Dodd-Frank Act did not fix this serious 
examination disparity. Rather, Section 914 merely requires the 
SEC to study how to improve investment adviser oversight.
    The SEC staff proposed three options to address oversight. 
One option, imposing user fees, is unworkable and essentially 
amounts to an expansion of the SEC, which is in desperate need 
of fundamental reform, not increased responsibility.
    A second alternative, allowing FINRA to examine duly 
registered entities, would be a partial solution, however, 
stand-alone retail investment advisers' examination rates would 
not improve.
    In my view, the SEC staff's third option, authorizing one 
or more self-regulatory organizations or SROs to examine SEC-
registered investment advisers would provide the most 
comprehensive and streamlined approach to increase investment 
adviser examination rates. Therefore, I have prepared draft 
legislation that would authorize the creation of national 
investment adviser associations to register, examine, and 
discipline investment advisers to retail customers. The 
chairman of the subcommittee provided industry groups and other 
special interest groups and consumer groups with a draft last 
week.
    Regardless of the standard of care, bad actors will 
naturally flow to a regime where they are least likely to be 
examined, therefore, it is essential that we augment and 
supplement the SEC's oversight to dramatically increase the 
examination rate for investment advisers with retail customers.
    In conclusion, customers may not understand the different 
titles that investment professionals use, but they do believe 
that someone is looking out for them and their investments. For 
broker-dealers, that is true. For investment advisers, it all 
too often is not true, as was the case with the Bernie Madoff 
Ponzi scheme. That must change. I hope my colleagues will 
support this legislation and that all interested parties will 
join the committee's efforts to improve investor adviser 
oversight and enhance investor protection to avoid another 
Bernie Madoff experience.
    Thank you, Chairman Garrett. I yield back.
    Chairman Garrett. I thank the gentleman for yielding back.
    And I also thank the gentleman for the work he has done on 
the draft legislation that we are considering today.
    The gentleman from Massachusetts is recognized for 3 
minutes. Mr. Lynch?
    Mr. Lynch. Thank you, Mr. Chairman.
    I would like to welcome all the witnesses gathered here 
today and thank them for their time and effort in helping this 
committee with its work, especially Bill Dwyer, who is here 
today as the chairman of the Financial Services Institute, but 
he is also a resident of Massachusetts. He runs a company 
called LPL Financial in Massachusetts. He is a graduate of 
Boston College, which at least puts him in good stead with this 
Congressman.
    Investment advisers and broker-dealers are important 
stewards of the wealth of American families, whether by helping 
middle-class families with their retirement savings or advising 
small businesses on raising capital. Businesses that give 
financial advice provide much needed growth in job creation, 
and they are a vital part of the economy not only in my 
district, but across the country.
    It is important that we foster an environment in which 
investment advisers and broker-dealers can continue to help 
investors grow their money wisely. It is also incumbent upon 
this Congress and this committee to ensure that American 
families and small businesses that entrust their savings to 
financial advisers can be confident that trust is not 
misplaced. That is why we must also remain vigilant to ensure 
that regulators, whomever they may be, have the resources they 
need to keep investors well-informed and their money safe.
    I am very interested in hearing the witnesses' testimony 
today about the proposals contained in the SEC studies required 
under Dodd-Frank as well as any constructive ideas to improve 
investor confidence in financial advisers. I hope that we can 
have a productive discussion here today about improving this 
important industry, and I yield back.
    Chairman Garrett. Thank you.
    The gentleman yields back.
    The gentleman from Arizona is recognized for 1 minute.
    Mr. Schweikert. Thank you, Mr. Chairman.
    Mr. Chairman, looking up and seeing the new cracks on the 
walls, I hope those aren't a message from above.
    Mr. Chairman, with so many panelists here today, for 
someone like myself, what I am looking for is your insight into 
the law of unintended consequences. With the way the regulatory 
environment is moving, the promulgation of future rules that 
are maybe being drafted, are we heading towards that unintended 
consequence of making it harder, making it more difficult, 
taking away choices both on advice and in product; and by doing 
so, do we ultimately damage through that unintended consequence 
the financial futures of our citizens?
    Thank you, Mr. Chairman.
    Chairman Garrett. The ranking member is recognized for 2 
minutes.
    Ms. Waters. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing today.
    Improving the regulation of brokers, investment advisers, 
and other financial professionals was a central goal of Dodd-
Frank and is crucial to ensuring that families are protected as 
they save for retirement and their children's education or to 
buy a home. Research indicates that the average unsophisticated 
retail investor often does not understand the differences 
between investment advisers and broker-dealers. In fact, 
investors, unsurprisingly, expect their financial advisers to 
act in their best interests, regardless of the technical legal 
standard they may be held to. As the lines between broker-
dealers and investment advisers have blurred in recent decades, 
improving consumer protection has become increasingly 
important.
    For this reason, I applaud the SEC for recommending in 
their Section 913 study that broker-dealers and investment 
advisers should both be subject to a fiduciary duty standard 
when they render investment advice to retail customers, and I 
am pleased that many of the industry witnesses here today agree 
with me, the SEC, and the investor advocates that this is the 
appropriate approach.
    Given the widespread agreement on this point, I think that 
differences in approaches can be worked out during the 
rulemaking process, and there is no need to stop rulemaking in 
its tracks, as some of my colleagues have suggested.
    Finally, I would caution against delegating more 
responsibilities to a self-regulatory organization when it 
comes to investment advisers. I would agree with today's 
witness from the Consumer Federation of America saying that, as 
a general principle, I believe in funding government agencies 
to do their jobs rather than farming out those responsibilities 
to private entities. It is essential that we provide the SEC, 
our cop on the beat for Wall Street, with the funding it needs 
to do its job, but with that said, I am interested to hear the 
witnesses' comments on Chairman Bachus' bill and how an 
investment adviser SRO might work.
    I yield back the balance of my time.
    Chairman Garrett. The gentlelady yields back.
    Mr. Royce is recognized for 1\1/2\ minutes.
    Mr. Royce. Thank you, Mr. Chairman.
    I would urge the Members to take a look at the arguments 
made by two of the SEC Commissioners, Kathleen Casey and Troy 
Paredes, as they go forward here. I think that when you look at 
their arguments about the study, they say that at the end of 
the day, investors may have fewer broker-dealers and investment 
advisers to choose from, they may have access to fewer products 
and services, they may have to pay more for the services and 
advice they do receive. Any such results are not in the best 
interests of investors, nor do they serve to protect them.
    The argument they are making is that this is a flawed 
study, and they are suggesting that this aspect be studied. 
They say regulation based on poorly supported recommendations 
runs the risk of restricting retail investors' access to 
affordable, personalized investment advice and the range of 
products and services that they currently enjoy. They are 
arguing that without consideration of that, this is a step 
back. They say that there is a need for that particular 
research and analysis going into this report, and frankly, 
grasping potential costs and implications has escaped the SEC 
in the past.
    That is one of our concerns here, with the corporate 
culture at the SEC and other regulatory agencies, and that is a 
concerning trend. I think it should be. I think it should be, 
for us, a reason to ask that the advice of these two 
Commissioners be deployed here in this study. Given the sorry 
state of our economy and the continued slide in the 
competitiveness of this country and of the competitiveness of 
our capital markets, I don't think now is the time to issue 
rules without fully understanding the ramifications, and when 
two Commissioners say, let us put that into the analysis, I 
think it is time to do it. That is the recommendation that I 
would certainly have, Mr. Chairman. Thank you.
    Chairman Garrett. I thank the gentleman.
    Mr. Carson is recognized for 1\1/2\ minutes.
    Mr. Carson. Thank you, Mr. Chairman.
    Mr. Chairman, as we discuss another study the SEC was 
mandated to do through Dodd-Frank, I would like to use this 
opportunity to again voice my support to increase funding at 
the SEC. My friends, my good friends on the other side of the 
aisle have not hidden their desire to slow down or undo parts 
of the Dodd-Frank Act by suffocating funds to agencies charged 
with enforcing the new law. The Dodd-Frank Act requires the SEC 
to implement over 100 new regulations, create 5 new offices, 
and undertake about 20 studies. This is a significant 
undertaking that needs our support. The SEC needs funds to 
carry out new powers to police large hedge funds, derivatives 
dealers, and credit raters that it was tasked with by the Dodd-
Frank law. Government watchdogs on Wall Street have long been 
outnumbered and outspent by the companies that are opposed to 
policing. With the current funding recommendation, Republican 
leaders look to continue this imbalance and limit protections.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Chairman Garrett. The gentleman yields back.
    Mrs. Biggert is recognized for 2 minutes.
    Mrs. Biggert. I thank the chairman, and good morning to all 
of you and thank you for being here.
    As you are all well aware, Section 13 of the Dodd-Frank Act 
required the SEC to report to the House Financial Services 
Committee and the Senate Banking Committee on the standard of 
care applicable to broker-dealers and investment advisers. This 
section permits, but does not require, the SEC to issue rules 
to address inadequacies in the standard of care. Also, under 
Dodd-Frank, Section 914 has a mandate which specifically 
requires the SEC to study the authorization of one or more 
self-regulatory organizations to supplement the oversight and 
investigation of investment advisers.
    Despite the congressional mandate for the SEC to 
extensively study the fiduciary standard, the Department of 
Labor unilaterally decided to preempt the SEC and propose a 
rule to overhaul the standard without allowing the SEC to 
finish its study. Unfortunately, this is another example of the 
Administration imposing duplicative, overreaching, and 
burdensome regulations on the wrong folks at the wrong time.
    I am deeply concerned that just as Americans are worried 
about how much is left in their 401(k)s, the DOL proposal could 
reduce the number of options that the middle class rely on for 
retirement. Now that the SEC has concluded its study and the 
DOL has released its proposal, I am interested to hear from all 
of you particularly your opinions on whether the SEC has the 
resources to examine all investment advisers and how self-
regulatory organizations could help. Most importantly, I would 
like to hear how we can ensure the industry is efficiently 
regulated without disseminating the investment options so vital 
to millions of Americans.
    Thank you all for being here today, and I look forward to 
your testimony. I yield back.
    Chairman Garrett. The gentlelady yields back.
    Mr. Peters is recognized for 1 minute.
    Mr. Peters. Thank you, Mr. Chairman, and thanks to the 
witnesses for being here today in support of the hearing.
    As a former investment adviser who is also a registered 
broker-dealer, I understand how important the issues we are 
discussing today are to industry professionals and consumers. I 
think we can all agree that what is most important is making 
sure that consumers are getting good advice. Consumers don't 
understand the difference between a broker-dealer and an 
investment adviser, and quite frankly, they shouldn't have to, 
but when they are given personalized investment advice, they 
have the right to expect that advice is in their best 
interests.
    That said, consumers are not being served if they have 
diminished access to quality advice or the full range of 
products and services. I will be interested in hearing from the 
witnesses how these two very important goals can be 
accommodated.
    I would also be interested in hearing more about the 
Department of Labor's proposed business conduct standards, 
which I believe run the risk of severely limiting small 
individual investors' access to quality advice.
    Consumers also have the right to expect that investment 
advisers they rely on are being properly policed. As a former 
investment adviser, I know firsthand that the best regulator is 
an informed and educated consumer, but unfortunately we have 
seen instances where even savvy investors have been taken 
advantage of.
    Whatever entity is going to regulate investment advisers in 
the future, it is critical they are given the resources they 
need to do their job. I firmly believe that consumers and 
industry both benefit from the investor confidence that comes 
from a strong regulator that has the capacity to keep bad 
actors out of the system, but that kind of regulator requires 
resources which the Republican leadership seems unwilling to 
provide.
    I look forward to your testimony.
    Chairman Garrett. And the gentleman yields back.
    We were looking for Mr. Grimm. Unless he is not right 
there, then Mr. Stivers is recognized for 1 minute.
    Mr. Stivers. Thank you, Mr. Chairman.
    I appreciate the witnesses being here today, and with 
regard to the three issues we are going to talk about today, I 
wanted to sort of have you focus your comments to help us on a 
few things.
    With regard to the uniform fiduciary standard for broker-
dealers and investment advisers, I have really four questions: 
one, what are the substantial problems that this regulation 
attempts to address; two, what kind of cost-benefit analysis 
has occurred; three, what does the cost-benefit analysis tell 
us; and four, what is the impact on consumers?
    With regard to the Department of Labor regulation, their 
fiduciary rule through ERISA, I am curious what the impact will 
be on IRA holders, what the costs will be, and what it will 
mean to their options of investments.
    And, finally, with regard to examinations, I am a fan of 
Chairman Bachus' approach, but I am curious to hear from the 
witnesses what they think of Chairman Bachus' approach with 
SROs.
    I am looking forward to hearing the witnesses' testimony 
today. I want to thank you for being with us today.
    Mr. Chairman, thank you for allowing me some time. I yield 
back.
    Chairman Garrett. I thank you for your comments.
    Mr. Perlmutter is recognized for 2 minutes.
    Mr. Perlmutter. Thank you, Mr. Chairman, and I look forward 
to the testimony this morning. I think this is an important 
subject, whether regulation should be extended to various 
individuals for various products or not. All of this came 
from--in my opinion--the frauds that we saw conducted by Bernie 
Madoff as well as Stanford and some others. Whether these 
regulations really resolve those kinds of frauds or not is 
something I would like to hear about.
    But as to my friends in the Republican Majority, when the 
chairman says maybe the SEC has too much on its plate, when you 
take the plate and you shrink it from what you have for the 
main course and you make it a dessert plate, yes, there 
probably is too much on that plate. But whether or not we need 
that regulation, I think is what is important.
    Between Madoff and Stanford, about $50 billion to $60 
billion was stolen, and the question is, do you want to take 
the cops off the beat? Whether these regulations that are being 
discussed today are appropriate or warranted, that is one 
question, but to take the cops off the beat to allow investor 
confidence to erode as it did in the fall of 2008, I think is 
just the wrong way to go. We need to be focusing on more 
investor confidence, not less, and we need to be focusing on 
jobs, and I would ask the Republican Majority to turn their 
attention to those things.
    I yield back.
    Mr. Schweikert. [presiding]. Thank you.
    Mr. Schweikert. Mr. Dold, for 1 minute.
    Mr. Dold. Thank you, Mr. Chairman.
    I certainly want to thank the witnesses for being here 
today.
    As you all know, approximately 11,000 SEC-registered 
investment advisers manage over $38 trillion for more than 14 
million customers, and over 5,000 broker-dealers manage over 
100 million accounts. With so many millions of Americans 
trusting so much wealth to investment advisers and broker-
dealers, it is critical that we create a strong, modern, 
rational, and balanced regulatory framework that provides 
meaningful investor protections, while avoiding unnecessarily 
high costs that investors will ultimately pay.
    For this hearing, I am particularly interested in four 
specific areas: first, have bifurcated duty standards created 
undue investor risk, and would a uniform fiduciary duty 
standard effectively enhance investor protection; second, what 
are the likely costs, benefits, and risks of a uniform 
fiduciary duty standard for broker-dealers and investment 
advisers, and how likely and quantifiable are those costs, 
benefits, and risks; third, what is the best way to finance 
necessary investment adviser examinations, and who can most 
cost-effectively conduct those necessary examinations; and 
fourth, will the Labor Department's ERISA fiduciary rulemaking 
proposal lead to inconsistency and affirmative conflicts with 
other statutes and regulations?
    And again, I thank the witnesses for being here. I look 
forward to your testimony.
    Thank you, Mr. Chairman.
    Mr. Schweikert. Thank you, Mr. Dold.
    Mr. Dwyer, you are our first witness. Thank you for joining 
us.
    Mr. Dwyer. Thank you, Mr. Chairman.

STATEMENT OF WILLIAM E. DWYER III, CHAIRMAN, FINANCIAL SERVICES 
                        INSTITUTE (FSI)

    Mr. Dwyer. My name is Bill Dwyer, and I am president of 
national sales and marketing for LPL Financial. By way of 
background, LPL is the Nation's 4th largest broker-dealer, with 
12,600 FINRA-registered advisers, approximately 95 percent of 
whom are also registered under our RIA, making LPL one of the 
largest registered investment advisers in the Nation. I am 
pleased to testify today on behalf of the Financial Services 
Institute, which represents firms supporting over 200,000 
independent financial advisers.
    As dual registrants that work almost exclusively with 
retail investors, FSI members live under both broker-dealer and 
investment adviser oversight. This gives us the flexibility to 
support clients across the spectrum of wealth, whether they are 
small-town investors opening their first IRA or affluent 
clients with more complex wealth management needs. We bring a 
unique perspective on the issues being considered here today.
    Congress should take two critical steps to improve 
regulation for hard-working Americans who rely on investment 
advice. First, Congress should vigorously oversee the SEC's 
work on a new uniform fiduciary standard of care for broker-
dealers. Second, Congress should quickly pass legislation 
proposed by Chairman Bachus authorizing the SEC to approve an 
SRO for retail investment advisers.
    The SEC study found that a uniform fiduciary standard of 
care would be in the best interests of the client. We agree. 
This new standard should preserve investor access to 
personalized investment advice from a broad range of service 
providers. The SEC should create core principles of fiduciary 
conduct. These will serve as the basis for regulatory 
requirements specific to RIAs and broker-dealers. This will 
enhance investor protection while preserving investor choice.
    Congress should aggressively oversee the SEC's efforts to 
develop and implement this new uniform fiduciary standard. In 
addition, Congress should insist that the Department of Labor 
withdraw and repropose its flawed fiduciary duty rule, which is 
in blatant conflict with Congress' stated intent under 913. As 
drafted, the DOL rule would limit access to affordable advice 
for those who need it most. Also, adoption of the DOL rule is 
likely to result in confusing and conflicting fiduciary 
standards.
    These measures must be paired with effective regulatory 
supervision to truly improve investor protection. That is why 
we strongly support closing a significant regulatory gap by 
increasing examinations of investment advisers. The simple fact 
is the SEC does not have sufficient resources to examine 
investment advisers. State examination programs are also 
inadequate.
    To close this gap, Congress should authorize the SEC to 
approve an SRO for investment advisers. We believe that FINRA 
is in the best position to serve as this SRO. FSI's endorsement 
of FINRA is based upon practicality. FINRA has the flexibility 
to set user fees and hire staff as needed. FINRA already has 
more than 1,000 examiners on its staff. Its private funding 
structure is a model for increasing RIA examinations at no 
additional cost to the taxpayer. FSI's support of FINRA as the 
SRO is also based on precedent. The SEC has more than 70 years 
of experience with the SRO model that can be adapted to ensure 
a transparent and publicly accountable regulatory structure 
over both RIAs and broker-dealers.
    In conclusion, this approach to the fiduciary standard and 
advisory examination will provide a consistent level of 
protections to all investors, level the playing field for 
industry participants and boost investor confidence.
    Mr. Chairman, Main Street Americans deserve a smarter 
system that ensures true investor protection coupled with 
access to the best independent financial advice possible. We 
deeply appreciate the leadership Chairman Bachus has provided 
on these critical issues.
    Thank you for your time this morning, and I would be happy 
to answer any questions.
    [The prepared statement of Mr. Dwyer can be found on page 
51 of the appendix.]
    Mr. Schweikert. Thank you.
    Next, Mr. Ken Ehinger, president and chief executive 
officer of M Holdings Securities.

    STATEMENT OF KEN EHINGER, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, M HOLDINGS SECURITIES, INC., ON BEHALF OF THE 
       ASSOCIATION FOR ADVANCED LIFE UNDERWRITING (AALU)

    Mr. Ehinger. Thank you, Mr. Chairman. Mr. Chairman, Ranking 
Member Waters, and members of the subcommittee, I am Ken 
Ehinger, president and chief executive officer of M Holdings 
Securities. I am testifying today on behalf of the Association 
for Advanced Life Underwriting. AALU appreciates the 
opportunity you have given us to testify on the important 
issues raised by the Dodd-Frank 913 and 914 studies.
    Based upon my experience and more than 3 decades in the 
securities and insurance business, I can tell you that a 
standard of care for financial professionals that sounds good 
in theory may fail in practice if it is vague and amorphous and 
provides no guideposts for compliance. And a fiduciary duty 
offers little protection if regulators do not have the tools 
and resources to effectively oversee the financial 
professionals who are subject to it.
    AALU does not support the SEC staff recommendation in the 
913 study that broker-dealers be subject to the legal standard 
of care under the Investment Advisers Act. We believe SEC 
Commissioners Casey and Paredes got it right when they said 
that the study provided no empirical evidence or data that such 
a change would improve investor protection. We also agree with 
their conclusion that the study failed to assess the costs and 
impact of a change as required by Dodd-Frank, including the 
risk that such a change would reduce investor access to 
products and services and increase costs.
    The need for empirical basis and rigorous cost-benefit 
analysis in SEC rulemaking is critical, particularly in view of 
the SEC's recent experiences with rulemaking challenges in the 
D.C. Court of Appeals. It is in the interests of all of us who 
are regulated by the Commission to have a strong and respected 
regulator to police our markets and to instill and enhance 
investor confidence. The full committee will be holding a 
hearing on these broader issues 2 days from now. We want to add 
our voice to those who are saying that the Commission, with its 
limited resources, simply has to focus on the most critical 
issues at hand.
    With respect to the SEC's priorities, let me say that 
Chairman Bachus, Chairman Garrett, and members of this 
committee are performing an important service for investors in 
focusing on the need to substantially increase SEC inspections 
of investment advisers potentially through a self-regulatory 
organization such as FINRA.
    AALU members are licensed life insurance professionals. 
Many are licensed in multiple States. Most AALU members are 
registered representatives of SEC- and FINRA-registered broker-
dealers and/or investment adviser representatives of SEC-
registered advisers. Our members are subject to multiple layers 
of Federal and State regulation.
    The variable insurance products our members sell give 
customers investment choices and an insurance guarantee, which 
has been recognized as even more important in recent years of 
volatility. It is the sale of these products that triggers 
broker-dealer registration and SEC, FINRA, and State securities 
regulation and oversight for insurance producers. In fact, the 
regulatory requirements for variable insurance products are far 
more detailed and rigorous than anything that exists in the 
regulation of investment advisers.
    Although AALU's submission to the SEC on the 913 study 
explained the regulation of variable insurance products in 
great detail, the SEC staff did not acknowledge this anywhere 
in its study. This concerns us because the range and features 
of products such as variable life and variable annuities make 
it difficult to determine which product is best, and a best 
interest standard almost certainly would lead to increased 
litigation. Determining what is best would be highly 
subjective, opening up producers to second-guessing, often 
years after the sale of a product.
    The SEC staff's recommendation for a uniform fiduciary duty 
rests almost entirely on a 2008 RAND Report finding investor 
confusion over the legal duties that apply to financial 
professionals. That same report also found that investors were 
satisfied with their own financial service providers. This 
points to the need for more effective disclosures and investor 
education, not the need for wholesale changes in the legal 
standards.
    The regulatory and oversight regime for broker-dealers is 
superior to the regulation of investment advisers. If any 
changes are to be made to enhance investor protection, priority 
should be given to bringing adviser regulation up to the level 
for broker-dealers.
    Let me close by saying that life insurance enables 
individuals and families from all economic brackets to maintain 
independence in the face of financial catastrophe. The life 
insurance industry, through permanent life insurance and 
annuities, provides 20 percent of America's long-term savings. 
Two out of three families, that is 75 million families, count 
on the important financial security that life insurance 
products provide. Therefore, any proposed change in regulation 
that could limit consumer choices and access to these critical 
protection and savings vehicles should meet a high burden with 
respect to the need for the changes.
    Thank you for the opportunity to testify in this important 
hearing. AALU looks forward to continuing to work with you on 
these critical issues.
    [The prepared statement of Mr. Ehinger can be found on page 
67 of the appendix.]
    Mr. Schweikert. Thank you.
    Terry Headley, president of National Association of 
Financial and Insurance Advisors.

STATEMENT OF TERRY HEADLEY, PRESIDENT, NATIONAL ASSOCIATION OF 
            INSURANCE AND FINANCIAL ADVISORS (NAIFA)

    Mr. Headley. Thank you, and good morning, Mr. Chairman, 
Ranking Member Waters, and members of the subcommittee. My name 
is Terry Headley, and I am the president of the National 
Association of Insurance and Financial Advisors. For 38 years, 
I have been an insurance licensed agent, financial adviser, 
registered representative, and an investment adviser 
representative. I greatly appreciate the opportunity to share 
with you NAIFA's views on the regulation and oversight of 
broker-dealers and investment advisers.
    I will focus on two issues. First, the imposition of a 
fiduciary standard of care on broker-dealers, and secondly, the 
creation of an SRO for investment advisers.
    Like most of my NAIFA colleagues, I have spent my career 
helping Main Street investors achieve their financial goals by 
providing affordable financial services for middle-class 
investors. Virtually all NAIFA members sell life insurance. 
Two-thirds of us are also broker-dealer registered 
representatives, selling primarily mutual funds and annuities, 
and, like me, about 40 percent of the registered 
representatives are also investment adviser representatives. 
Many of us provide retirement planning services as well. NAIFA 
members are largely small business owners serving the middle 
class. The majority of our clients have household incomes under 
$100,000, and a sizable percentage have less than $50,000 
invested in the financial markets.
    The SEC has said they will oppose a single uniform 
fiduciary standard of care on broker-dealers and investment 
advisers. At the same time, the Department of Labor is 
promulgating its own rule, expanding the fiduciary standard. 
The DOL's rule, however, is different from the approach 
required under Dodd-Frank. As a result, we can see two 
different agencies with two different fiduciary standards 
serving two different purposes.
    We are deeply concerned about the impact these rules could 
have on our ability to serve middle-market clients. If, as the 
SEC study concludes, consumers are indeed confused, I can 
guarantee you that the confusion will only multiply if the 
rules are not properly constructed. NAIFA supports 
clarification to address client confusion, to ensure that 
clients understand the different rules and business models of 
investment advisers and broker-dealers, but simply applying the 
1940 Investment Advisers Act standard to broker-dealers in a 
one-size-fits-all manner would negatively impact product 
access, product choice, and affordability of services for 
consumers who need them the most.
    NAIFA has collected industry data over the past year 
showing that if compliance costs and liabilities increase, many 
NAIFA members would be forced to discontinue providing services 
to middle-class clients. Middle-class investors must be able to 
obtain personalized financial advice so they can plan 
adequately for their futures.
    The SEC study unduly discounts the risk that additional 
regulatory burdens could result in middle-class investors 
having fewer financial advisers from which to choose.
    If the Commission imposes a uniform fiduciary duty, it 
must: one, incorporate the Dodd-Frank exceptions providing that 
broker-dealer commission compensation and the sale of 
proprietary products would not inherently violate a possible 
uniform standard; two, account for the unique attributes of the 
broker-dealer business model; three, provide new guidance 
documents for the industry; and four, be sufficiently clear and 
comprehensible so broker-dealers can adjust their business 
practices with minimal disruption.
    Finally, I would like to mention our belief and official 
policy decision that FINRA should serve as the self-regulatory 
organization to conduct periodic examinations of SEC-registered 
investment advisers. It is clear to us that would be the most 
efficient and cost-effective approach to regulating the 
examination of investment advisers.
    Although we have not had time to fully analyze the bill, we 
believe that the draft legislation that would establish an 
application and registration process for national investment 
adviser associations moves in the right direction and provides 
a useful basis for further discussion and consideration. We 
look forward to working with the subcommittee on this important 
matter.
    In conclusion, thank you for the opportunity to share our 
views with you today that we deem critical to ensuring all 
investors are both protected and have access to competent 
financial advice and services. We welcome the opportunity to 
assist you in any way that we can. Thank you.
    [The prepared statement of Mr. Headley can be found on page 
80 of the appendix.]
    Mr. Schweikert. Thank you.
    Steven D. Irwin, commissioner, Pennsylvania Securities 
Commission, on behalf of the North American Securities 
Administrators Association.

     STATEMENT OF STEVEN D. IRWIN, PENNSYLVANIA SECURITIES 
   COMMISSIONER, ON BEHALF OF THE NORTH AMERICAN SECURITIES 
            ADMINISTRATORS ASSOCIATION, INC. (NASAA)

    Mr. Irwin. Congressman Schweikert, Ranking Member Waters, 
and members of the subcommittee, I am Steve Irwin, chairman of 
the Federal Legislative Committee of the North American 
Securities Administrators Association, or NASAA.
    At this moment, securities regulators from nearly all 50 
States are in Kansas celebrating the 100th anniversary of our 
Nation's first Blue Sky Law. For a century, State securities 
regulators have combated fraud against mainstream investors, 
especially those less able to protect their own interests. In 
2010 alone, State securities regulators conducted more than 
7,000 investigations, leading to nearly 3,500 enforcement 
actions, including 1,100 criminal actions. Last year, 3,200 
licenses of brokers and investment advisers were withdrawn, 
denied, revoked, suspended or conditioned by the States. Since 
2004, State regulators have secured convictions with prison 
sentences of nearly 6,000 years.
    Traditionally, State securities regulators have pursued 
perpetrators trying to defraud mom-and-pop investors locally, 
but this does not mean that States do not also play a vital 
role in shutting down many more complex schemes involving 
national markets. State investigation of violations on a 
national level have forced, for example, Wall Street to correct 
rampant conflicts of interest among stock analysts, illegal 
late trading, and market timing in mutual funds. Most recently, 
State regulators returned to investors $61 billion stuck in 
illiquid auction rate securities.
    Today's hearing is intended to review the Dodd-Frank 
Section 914 study and consider steps to improve the oversight 
of SEC-registered investment advisers. Mr. Chairman, it is 
important to note that the Section 914 study considered only 
the question of federally regulated investment advisers. The 
study did not consider or make any recommendations regarding 
State-regulated IAs. Currently, the States are the sole 
regulators of investment advisers with less than $25 million in 
assets under management. In mid-2012, this will increase to 
$200 million. NASAA would vigorously oppose the creation of any 
self-regulatory organization for these State-regulated 
investment advisers and their associated persons.
    Oversight of investment advisers should remain a government 
responsibility. Investment adviser regulations should continue 
to reside with State and Federal Governments, which must 
zealously carry out their mandates. Government regulators bring 
to the table decades of unmatched experience. We see little 
benefit in constructing a new layer of bureaucracy with its 
incumbent expense. If the goal is strengthening investor 
protection through improved oversight of SEC regulated 
investment advisers, then the fastest route is to ensure that 
Federal regulators have the resources that they need.
    Numerous issues must be resolved before establishing an SRO 
for SEC-registered investment advisers. The discussion draft 
would require small and midsized firms to register with a new 
investment adviser SRO. Such advisers usually operate in a 
single State. Shifting such regulation to a central office 
would subject these small businesses to redundant regulation 
and add unnecessary costs to support the new organization. As 
the local cops on the beat, the States are best positioned to 
be the primary regulator for small and midsized firms. When it 
restored State authority over these firms last year, Congress 
recognized we are more likely to visit their offices across 
America than the SEC or an organization headquartered in New 
York or Washington.
    The current securities industry SRO model is replete with 
conflicts of interest. Industry representatives serve on the 
SRO's board and occupy other positions of prominence within the 
organization. Premised on self-rule, they are primarily 
accountable to their members, not the investing public. As the 
914 study observed, any SRO that depends on its members for 
funding is highly susceptible to industry capture.
    Sharing information among State and Federal regulators is 
essential to protecting investors, but the State or government 
actor doctrine has become a barrier to collaboration and 
cooperation under the SRO model. Any increased--FINRA has 
pointed to the doctrine as a reason to refuse State regulators' 
requests for investigatory cooperation. The present SRO model 
is flawed, and Congress should not consider expanding it until 
it is fixed. This may require addressing the State actor issue 
by statute to ensure it no longer is an impediment to swift, 
aggressive, and efficient enforcement.
    An SRO further hobbles investor protection by its lack of 
transparency. Unlike the States and the SEC, subject to FOIA, 
FINRA can and does filter regulatory records, which may deprive 
the public of information pertinent to their investment 
decisions. SROs cannot claim the accountability of State 
regulators answerable to the elected officials who appoint 
them, nor can SROs duplicate State regulators' proximity to 
their constituents and familiarity with the investment advisers 
they routinely license and examine. To the extent an SRO may be 
federally designated, government must check it.
    In view of the SRO's role in the government and securities 
markets today, it is critical that the SEC exercise robust 
oversight. Any increased SRO role with respect to federally 
covered advisers cannot displace State laws. The notion that 
State law might one day be preempted by administrative rules 
issued by a private corporation is unconscionable. Preemption 
occurring because of industry self-made rules would undermine 
basic tenets of Federalism and the democratic values from which 
regulation derives legitimacy.
    Thank you, Mr. Chairman.
    Wait, one more thing. The subcommittee also considers today 
whether the SEC should apply the same duty of care to broker-
dealers and investment advisers. Financial professionals who 
provide personalized investment advice to retail investors 
should be held to the fiduciary duty under the Investment 
Advisers Act of 1940. Ninety-seven percent of those surveyed 
believe financial professionals should put the investors' 
interests before their own and disclose up front any fees, 
commissions or conflicts of interest. Any minimal increase in 
compliance costs will be outweighed by the direct benefit to 
investors, who expect and deserve to have their interests come 
first.
    It is an honor to work beside State securities regulators 
from throughout North America. On a mission to protect 
investors, they stepped up to fill the gap in the regulation of 
investment advisers.
    Thank you, Mr. Chairman, Ranking Member Waters, and members 
of the committee for the opportunity to work with you toward 
restoring trust on Main Street in our capital markets. Rest 
assured that we are all innovating, being strategic, and 
maximizing all available resources to get the job done.
    [The prepared statement of Mr. Irwin can be found on page 
89 of the appendix.]
    Mr. Schweikert. Thank you.
    Richard Ketchum, chairman, chief executive officer, 
Financial Industry Regulatory Authority. Mr. Ketchum.

 STATEMENT OF RICHARD G. KETCHUM, CHAIRMAN AND CHIEF EXECUTIVE 
    OFFICER, FINANCIAL INDUSTRY REGULATORY AUTHORITY (FINRA)

    Mr. Ketchum. Thank you, Mr. Chairman, Ranking Member 
Waters, Chairman Bachus, and members of the subcommittee. As 
you note, I am Richard Ketchum, chairman and CEO of the 
Financial Industry Regulatory Authority, or FINRA. On behalf of 
FINRA, I would like to thank you for the opportunity to testify 
today. I will just note from the earlier statement, I feel very 
much today and every day as accountable to this subcommittee.
    The issue being discussed today, the oversight of 
investment advisers and broker-dealers, is a critical one for 
investors, and I strongly believe that significant improvements 
are needed if investors are to receive the protections that 
they deserve. Increasing numbers of retail investors are 
seeking the advice of financial professionals, both brokers and 
investment advisers. At one time, these two businesses were 
distinct and separate, but today in many ways they have 
converged. Nevertheless, the regulation of investment advisers 
and broker-dealers remains quite different. The two industries 
are subject to different standards of conduct and very 
different levels of oversight and enforcement.
    FINRA believes that the standard of care on both channels 
should be a fiduciary standard for the provision of 
personalized investment advice to retail customers. We have 
found under the present broker-dealer regime that too often 
regulators have been forced to respond issue by issue or 
violation by violation rather than addressing problems more 
broadly and prospectively. Extending a fiduciary duty to all 
professionals providing individualized advice to retail 
customers should, of course, be done carefully in a way that 
provides interpretive guidance as to the application of such a 
duty to the variety of broker-dealer business models that 
currently exist.
    Harmonization of the standard of care is an important first 
step; however, just as critical is a consistent oversight 
regime to ensure investors of being properly protected. 
Compliance with the fiduciary standard must be regularly and 
vigorously examined and enforced to ensure the protection of 
investors. The SEC study on investment adviser exams concludes 
that the agency will not have sufficient capacity in the near 
or long term to conduct effective examinations of registered 
investment advisers with adequate frequency.
    The SEC oversees more than 11,000 investment advisers, but 
in 2010 conducted only 1,083 exams of those firms due to the 
lack of resources. As such, the average registered adviser 
could expect to be examined less than once every 11 years.
    While the Commission examines only about 9 percent of 
investment advisers each year, 55 percent of broker-dealers are 
examined each year by the SEC and FINRA. The SEC has estimated 
that it would need to double the number of examiners to 
increase the frequency of adviser exams to even 20 percent.
    The gap in investment adviser oversight is a significant 
void and should be addressed as quickly as possible. Providing 
the SEC authority to designate one or more SROs for investment 
advisers subject to Commission oversight is the most practical 
and efficient way to address this problem. Chairman Bachus' 
draft legislation circulated for this hearing would establish 
that authority and set a framework of requirements for any 
entities that would be designated as adviser SROs.
    The draft is a thoughtful approach to addressing the 
critical need for increased adviser oversight. The draft 
ensures that an adviser SRO would do regular examinations of 
members and their associated persons, while not imposing 
burdens on advisers that are not necessary or appropriate. The 
draft sets out criteria for governance that would require a 
majority of public representatives on any SRO's board, and that 
members of the investment industry would be allocated a number 
of the remaining seats.
    Another significant issue is the scope of authority of any 
investment adviser SRO. Any adviser SRO should have authority 
to examine for and enforce compliance with the Investment 
Advisers Act, the rules under that Act, and its own rules. We 
believe that the primary regulatory structure for advisers 
should remain the fiduciary standard incorporated in the 
Advisers Act and related SEC rulemaking and interpretations. 
Adviser SROs should have limited rulemaking authority, but the 
extent of that authority should be a matter for Congress and 
the SEC to determine.
    The discussion draft addresses these issues, establishes a 
high standard for SEC approval of SROs in the adviser area, and 
a requirement for consultation with the SEC in developing an 
examination program for investment advisers. We support this 
approach.
    The SEC and State regulators play vital roles in overseeing 
both broker-dealers and investment advisers, and they should 
continue always to do so. FINRA has worked alongside both in 
overseeing broker-dealers, making hundreds of referrals at both 
the Federal and State level, and providing information in 
response to numerous requests each year. The problem at issue 
today is not about coordination among regulators, but about 
ensuring oversight where otherwise there is not acceptable 
coverage.
    Investor protection demands that more resources be 
dedicated to regular and rigorous examination and day-to-day 
oversight of investment advisers. SROs can help fill an 
untenable gap in the protection of investment advisory clients. 
FINRA is committed to working closely with other regulators and 
this subcommittee as you consider how best to address the lack 
of examination resources for investment advisers.
    I appreciate the opportunity to testify today and I will be 
happy to answer any questions you may have.
    [The prepared statement of Mr. Ketchum can be found on page 
101 of the appendix.]
    Chairman Garrett. Ms. Roper, you are recognized.

 STATEMENT OF BARBARA ROPER, DIRECTOR OF INVESTOR PROTECTION, 
              CONSUMER FEDERATION OF AMERICA (CFA)

    Ms. Roper. Thank you, Chairman Garrett, Ranking Member 
Waters, Chairman Bachus, and members of the subcommittee.
    I am Barbara Roper, director of investor protection for the 
Consumer Federation of America. I appreciate the opportunity to 
appear before you today to talk about a topic that has been a 
priority for CFA for a quarter century, improving protections 
for investors in their dealings with brokers and investment 
advisers.
    The policies advocated in the two SEC studies that are the 
subject of this hearing have the potential to plug two 
significant gaps that put retail investors at risk: the fact 
that brokers are allowed to market themselves as advisers and 
offer extensive advisory services without having to act in 
their customers' best interest; and the fact that investment 
advisers are subject to inadequate regulatory oversight. My 
written testimony deals with both topics.
    While both are priorities, I am going to focus on the 
standard of care issue in my oral statement since, of the two, 
we believe it has the greater potential to increase investor 
protection.
    In the Section 913 study, the Securities and Exchange 
Commission has proposed an approach for imposing a fiduciary 
duty on brokers when they give personalized investment advice 
to retail investors that has won praise, on the one hand, from 
investor advocates, State securities regulators, and others who 
have long advocated for a broker-dealer fiduciary duty and, on 
the other hand, has won praise from the likes of SIFMA and FSI 
who long resisted such an approach.
    It has earned the support of the first group by pledging 
that the existing standard of protection under the Investment 
Advisers Act would not be weakened. It has earned the praise of 
the second group by proposing an approach that would preserve 
the broker-dealer business model by ensuring that brokers would 
remain free to charge commissions, to sell proprietary 
products, to sell from a limited menu of products, to engage in 
principal trading, and to offer transaction-based 
recommendations.
    If the Commission moves forward with a rulemaking along 
these lines, the result for investors would be the best of both 
worlds. They would retain their ability to choose whether they 
want ongoing account management or transaction-based 
recommendations, whether they want to pay through fees or 
through commissions. But they would be able to make that choice 
without giving up their right to recommendations that are in 
their best interest; and they could expect to see their costs 
drop, not rise, if brokers had to take costs into account in 
making their recommendations.
    Some, including some members of this subcommittee, have 
suggested that the Commission hasn't adequately demonstrated 
the need to raise the standard. But here is what we know: We 
know that investors can't tell brokers from investment 
advisers. Indeed, they cannot tell whether their own financial 
professional is a broker or adviser, even after the differences 
have been explained to them. And we know this confusion cannot 
be disclosed away.
    We know that investors do not understand that brokers and 
investment advisers are subject to different legal standards 
when they perform the same functions, and we know that 
investors expect that anyone who is providing them with 
investment advice will be acting in their best interest. As a 
result, we know that investors are simply not able to make an 
informed choice among providers on whom they rely for 
recommendations; and they are not sufficiently on their guard 
when dealing with so-called financial advisers who are really 
just selling products.
    Some continue to maintain, however, that the SEC has not 
done enough to demonstrate that investors are being harmed. And 
it is true that the Section 913 study does not provide 
extensive evidence of that harm, something that we had 
advocated that the SEC do. But the simple truth is that 
investors pay significant excess costs and lose out on 
important long-term benefits as a result of conduct that is 
permissible under the suitability standard but not under a 
fiduciary duty.
    Take, for example, the investor who is purchasing a 
variable annuity with a guaranteed living benefit. As long as 
that is a suitable investment in light of the investor's 
circumstance, the broker selling the annuity is free to select 
one that offers him the biggest paycheck. He doesn't even have 
to check to see if another variable annuity would offer the 
investor a better deal, let alone whether a different 
investment strategy might be in the investor's best interest. 
But the difference can amount to thousands of dollars a year in 
income for investors and tens of thousands of dollars over the 
lifetime of the investment. The investor who is sold the 
inferior product will likely never know that he or she has been 
had. But a couple of thousand dollars of income is real money 
to middle-income investors, money they cannot afford to 
sacrifice just so the broker can enjoy a more profitable 
payday.
    A well-enforced fiduciary duty would change that, not by 
imposing an unrealistic requirement that the broker consider 
every product available in the market, not by requiring brokers 
to give up their expectation of reasonable pay for their 
services, but by requiring the broker to have a reasonable 
basis for believing that, among the products he has to sell, 
the one he recommended is, in fact, the one that is best for 
that investor. And if product sponsors had to start competing 
based on benefits to investors, rather than compensation to the 
broker, the change could be truly revolutionary.
    The kind of harm that occurs when advice is offered under a 
sales standard isn't always dramatic and it isn't easy to 
quantify. But for the average investors whose retirement 
security is put at risk, it more than justifies the long-
overdue rulemaking to subject brokers to the same standards all 
other advisers live under when they offer personalized 
investment advice.
    The Commission has pledged to gather additional data before 
moving forward on a rulemaking. We urge members of this 
committee to support, rather than impede, those efforts.
    Thank you.
    [The prepared statement of Ms. Roper can be found on page 
109 of the appendix.]
    Chairman Garrett. Thank you.
    Mr. Taft, you are recognized.

 STATEMENT OF JOHN TAFT, CHAIRMAN, THE SECURITIES INDUSTRY AND 
             FINANCIAL MARKETS ASSOCIATION (SIFMA)

    Mr. Taft. Good morning, Chairman Garrett, Ranking Member 
Waters, Chairman Bachus, and members of the subcommittee.
    I am the chairman of the Securities Industry and Financial 
Markets Association, and CEO of RBC U.S. Wealth Management, 
which has over 2,000 financial advisers serving 800,000 client 
accounts. Thank you for the opportunity to testify.
    Today, I will present SIFMA's views in support of 
establishing a uniform fiduciary standard for brokers and 
advisers and ensuring uniform examination of that standard. We 
believe that such a standard is consistent with the current 
best practices in our industry, and we hope it will ultimately 
result in a heightened industry focused on serving the best 
interests of retail customers.
    Our support, however, is premised on achieving this 
standard in a manner that protects investor choice, protects 
investors, is cost-effective, is business model neutral, and 
avoids regulatory duplication or conflict. The development of 
such a standard is a complex undertaking that must be well 
thought out, reflect both the statute and congressional intent, 
and reflect the thorough cost-benefit analysis.
    Further, it is our strong view that the Department of 
Labor's expansive new proposed definition of fiduciary under 
ERISA directly conflicts with Section 913. Unless DOL 
reproposes, their proposal will result in decreased investor 
choice and increased investor cost.
    That said, Congress explicitly intended for the SEC to 
craft a uniform fiduciary standard that not only protects 
investors but also preserves investor choice and access to 
cost-effective financial products and services. The standard 
must also be adaptable to the substantially different operating 
models of broker-dealers and investment advisers.
    Section 913 of Dodd-Frank requires that the uniform 
fiduciary standard be no less stringent than the general 
fiduciary duty applied by the Advisers Act. However, the plain 
language of Dodd-Frank, together with its legislative history, 
makes clear that the no less stringent language does not 
require the SEC to impose the Advisers Act on broker-dealers. 
If the SEC did so, it would negatively affect client choice, 
product access, and affordability of customer services. By 
definition, such a move would not be in the best interests of 
retail customers.
    The general fiduciary duty implied under the Advisers Act 
also provides incompatible and insufficient guidance for 
broker-dealers on how to manage, disclose or, where necessary, 
obtain consents to potential conflicts of interest. Imposing 
the Advisers Act standard would also be problematic for broker-
dealers from a commercial, legal, compliance, and supervisory 
perspective, thereby undercutting the SEC's intent to take a 
business model-neutral approach.
    Under our proposed framework, the general fiduciary duty 
implied under the Advisers Act would be newly articulated 
through SEC rulemaking under the Advisers Act and parallel, 
consistent, and equally stringent rulemaking under the Exchange 
Act which governs broker-dealers. The SEC would also issue 
rules and guidance to provide the structure and detail 
necessary to enable broker-dealers to apply the standard to 
their distinct operating models.
    We continue to urge the SEC to newly articulate a uniform 
fiduciary standard rather than attempt to overlay the Advisers 
Act, which would result in significant negative effects for 
investor protection and choice.
    The DOL's fiduciary proposal conflicts with Section 913 and 
with SEC efforts to implement Section 913 and could subject 
brokers and advisers to multiple and conflicting regimes when 
dealing with retail customers. The DOL proposal also suffers 
from inadequate cost-benefit analysis, particularly with 
respect to retirement plans and IRAs and the impact on 
retirement savings. We strongly believe that the DOL proposal 
should be withdrawn and reproposed.
    In conclusion, if we succeed in establishing a uniform 
fiduciary standard, avoiding an Advisers Act overlay and 
removing conflicts with a DOL proposal, what next? That is a 
central question raised by Section 914 of Dodd-Frank, which 
required the SEC to review the need for enhanced examination of 
advisers.
    The SEC's Section 914 study recommends three options. We 
believe that the third option, the SRO option, is the most 
practical and prudent. Oversight of broker-dealers is bolstered 
by the examination activities of SROs like FINRA, particularly 
with respect to conduct directed towards retail customers. 
Consistent with establishing a uniform fiduciary standard, we 
ought to hold brokers and advisers to that same standard 
through uniform examination. Our SRO recommendation, however, 
does not extend to institutional advisers, and we would not 
support legislation that extends SRO oversight to institutional 
investors.
    Thank you, Chairman Garrett, and members of the 
subcommittee for allowing me to present SIFMA's views on these 
critically important topics.
    [The prepared statement of Mr. Taft can be found on page 
139 of the appendix.]
    Chairman Garrett. Thank you, Mr. Taft.
    Mr. Tittsworth, you are recognized for 5 minutes.

   STATEMENT OF DAVID G. TITTSWORTH, EXECUTIVE DIRECTOR AND 
 EXECUTIVE VICE PRESIDENT, INVESTMENT ADVISER ASSOCIATION (IAA)

    Mr. Tittsworth. Chairman Garrett, Ranking Member Waters, 
Chairman Bachus, thank you very much for the opportunity to be 
here today.
    The Investment Adviser Association represents SEC-
registered investment advisory firms. Our members serve a wide 
range of clients including individuals, trusts, and families, 
as well as institutions such as endowments, charities, 
foundations, State and local governments, pension funds, mutual 
funds, and hedge funds.
    Today, there are about 11,500 SEC-registered advisers. Most 
of these are small businesses. More than two-thirds employ 
fewer than 10 employees, and more than 90 percent employ fewer 
than 50 employees. Our members engage in a wide range of 
advisory activities and investment strategies on behalf of 
their clients. They perform a critical role in helping 
investors achieve their financial goals.
    Our written statement addresses a number of issues relating 
to SEC studies required under Sections 913 and 914 of the Dodd-
Frank Act. I would like to highlight a few key points about 
each.
    With respect to the Section 913 report, we support the 
recommendation urging the SEC to propose rules or guidance 
providing for a uniform fiduciary standard for investment 
advisers and broker-dealers when they provide personalized 
investment advice to retail clients.
    Having said that, we have emphasized two core concerns. 
First, we have urged the SEC not to weaken or water down the 
Advisers Act fiduciary standard. This duty is well established. 
It has been consistently interpreted for decades by the SEC and 
the courts. One of the greatest strengths of the Federal 
standard is its breadth. It provides the highest level of 
protection for investors while remaining dynamic and relevant 
in changing business and market conditions.
    Second, we note that the range in which broker and adviser 
activities overlap is actually relatively narrow. Thus, it 
would be inappropriate for the SEC to import the entire sales-
based broker-dealer regime on investment advisers or, vice 
versa, to impose Advisers Act rules on the nonadvisory 
activities of broker-dealers.
    With respect to the Section 914 report, we support 
regulation and oversight by the SEC, a single governmental 
regulator accountable to the Congress and the public that has 
investor protection as its paramount mission. We strongly 
oppose the creation of a private regulator for the advisory 
profession. Many other organizations agree with this position. 
We note that several reports, including one by the U.S. Chamber 
of Commerce, have cataloged drawbacks, costs, and 
inefficiencies of the private regulatory model and FINRA, in 
particular. I would also note that other countries with mature 
markets have completely discarded or are trending away from the 
private regulatory model.
    We have reviewed the discussion draft legislation that 
would require most investment advisers to belong to a private 
regulator. We do not believe this is the best approach to 
enhance adviser oversight.
    The draft legislation is clearly based on current laws 
governing FINRA and would subject thousands of advisory firms, 
including most small businesses, to broad rulemaking and 
inspection authority by a private regulator, in all likelihood 
FINRA. Many concerns have been documented about FINRA, 
including its lack of accountability, lack of transparency, its 
questionable track record, excessive costs, and its bias 
favoring the broker-dealer regulatory model. FINRA's budget and 
governance are not subject to direct oversight by the SEC or by 
Congress. It lacks the expertise to regulate investment 
advisers. It is not subject to statutory safeguards, such as 
the Freedom of Information Act. It is not required to conduct a 
cost-benefit analysis before imposing its rules.
    On the other hand, the SEC's budget is directly accountable 
to Congress. It has developed the expertise to regulate 
investment advisers over many decades; and the SEC is subject 
to numerous statutory requirements before it can impose its 
rules, including the consideration of costs and benefits.
    As an alternative, we respectfully urge the subcommittee to 
consider legislation authorizing investment adviser user fees. 
We would be pleased to assist in this effort, as outlined in 
our written statement.
    Again, thank you for the opportunity to appear today. I 
would be happy to answer any questions.
    [The prepared statement of Mr. Tittsworth can be found on 
page 229 of the appendix.]
    Chairman Garrett. Great. Thank you very much for your 
testimony, and thank you to the entire panel for being here for 
the last hour-and-a-half now.
    I recognize myself for the first 5 minutes of questions, 
and I guess I will begin my questions where I began my opening 
statement.
    In my opening statement I said that it would seem incumbent 
upon an agency such as the SEC that before they consider and 
promulgate regulations or rules that--as Mr. Tittsworth was 
just saying--they do a cost-benefit analysis. And that would 
indicate then, while you do that, do you actually have a 
problem that you are trying to solve with the regulations that 
you are going to eventually promulgate?
    My question--and I will throw it out maybe to Ms. Roper 
first for an answer. But to the entire panel, do we have 
anything other than what I will say is anecdotal examples? We 
didn't get it in the SEC study, as we pointed out. But do we 
have anything other than just the anecdotal examples--hard, 
factual data to show that the suitability standard is 
disserving to those seeking advice from broker-dealers?
    Ms. Roper. First, let me say I agree that the SEC's 913 
study does not provide that evidence. In our comment to the 
agency at the outset of this study, we outlined a number of 
areas where we thought they could pursue that evidence. It is 
not there. It is not that you can't get it, but it is not 
there.
    We know that, for example, the single factor that most 
determines investors' long-term performance is cost. It is not 
addressed under a suitability standard and is addressed under a 
fiduciary duty. There is evidence that could be collected and 
should be collected that would support the rulemaking. The SEC 
has a study team in place. They say they are going to collect 
that data. We believe it is a realizable task.
    Chairman Garrett. Would anyone else like to comment on 
that?
    The basic question, is there actual data out there that the 
SEC should have had or that we should have that can make that 
come to that conclusion one way or the other? Are there studies 
or data?
    Mr. Ehinger. I don't believe there is data that supports 
that information. I think that gets to the core of the question 
of what is the problem we are working to solve. Because in my 
statement, while there are differences in how broker-dealers 
and investor advisers are examined and regulated, in my 
opinion, in my experience, the broker-dealer model is much more 
robust.
    Chairman Garrett. For anyone else, is there any data that 
is out there with regard to--not anecdotal--but how the 
customers actually feel about the service they are getting? Is 
there any data out there with regard to not just the feeling 
but actually their level of satisfaction under the current 
regime, the current methodology that we have right now?
    Ms. Roper. Yes. There is survey data that clearly shows 
investors are satisfied with the service they receive. If they 
are not informed, they can't tell you whether they are dealing 
with a broker or an adviser. They don't know the basic things 
they would need to know if they were being disserved.
    Chairman Garrett. So, in other words, they don't know that 
they are being disserved?
    Ms. Roper. Absolutely. If they don't know that another 
product offers much better benefits than the one they were 
sold, why should they be dissatisfied? If they don't know they 
are losing tens of thousands of dollars over the lifetime of an 
investment because they are paying excess costs, why would they 
be dissatisfied?
    Mr. Tittsworth. Mr. Chairman, I would just note that the 
SEC will have to submit a cost-benefit analysis if it has a 
rulemaking. I know you and other members of the subcommittee 
have urged them to do that. And there has been a recent court 
decision. As I am sure you are aware, they can be taken to 
court if their cost-benefit analysis is not robust or effective 
enough.
    Chairman Garrett. And on that last point, just for the 
whole panel, is there anyone who disagrees with the idea that 
before the SEC promulgates these regulations, there should be 
an effective cost-benefit analysis? Does anyone disagree with 
that?
    Mr. Tittsworth. No. We agree with that.
    Mr. Irwin. Chairman Garrett, I don't think we need to wait. 
We can't afford to wait. We, in Pennsylvania, do approximately 
300 events in libraries and at fairs and others, talking to 
investors on the local level. And they need to have the 
confidence to come back into the markets. We really see that 
every day.
    If we take the position that what they don't know won't 
hurt them--it is like buying a car. Did you get a good deal or 
did you not get a good deal? When you find out afterwards you 
got a bad deal and really feel bad about it, you are paying 
more every month. That is what we are risking.
    Chairman Garrett. Mr. Ketchum, just a comment with regard 
to Mr. Tittsworth's comment. Your organization promulgates lots 
of regulations. Do you do a cost-benefit analysis?
    Mr. Ketchum. We operate from a cost-benefit analysis in a 
variety of ways. I believe anytime any issues are raised in our 
comment process, we do an analysis of the cost and the benefits 
of the rule.
    So, unlike the Federal Government, we first have 
representatives of the industry and industry committees and on 
our board who have a direct opportunity to raise any concerns 
from a cost standpoint. We then put out any nonadministrative 
rule we are proposing, unless it is an emergency, out to all 
constituents, including members but also to constituents of all 
sorts, to provide comments before we even provide it to the 
SEC. Our responsibility at the time we provide it to the SEC is 
to provide a response to comments, including any concerns with 
respect to costs at that time. Then, after the SEC evaluates, 
they come back to us and ask for additional details.
    So, yes, I believe anytime anyone in the industry or 
anywhere else has a concern with respect to cost, we are always 
required to address this.
    Chairman Garrett. Since my time is up, I will let Mr. 
Tittsworth have the final word on that.
    Mr. Tittsworth. I appreciate that, Mr. Chairman.
    Just to say briefly, they may consider some costs and 
benefits at FINRA, but, as a legal matter, it is not required. 
And if somebody brought a lawsuit, as the U.S. Chamber of 
Commerce did recently with the SEC, there is no law that would 
require FINRA rules to have that cost-benefit analysis. And I 
don't think you would have the same result.
    Chairman Garrett. I thank both gentlemen for their 
statements.
    The gentlelady is recognized for 5 minutes.
    Ms. Waters. Thank you very much, Mr. Chairman.
    Ms. Roper, you state in your testimony that the most vocal 
critics of the SEC Section 913 study have been insurance 
broker-dealers because their sale of variable annuities would 
come under the heightened standard of care. Do you believe that 
variable annuities require a heightened standard of care? And 
if so, why?
    Ms. Roper. I do believe so, yes. And I am not alone in 
that. Award-winning financial writer Liz Pulliam Weston has 
called them the worst retirement investment you can make. They 
have been called the most oversold, overhyped, least-understood 
investment products. And it is estimated by one industry 
observer that at least $25 billion a year in investor excess 
costs are siphoned from vulnerable investors to the insurance 
industry and their sales force through the sale of variable 
annuities. We believe that an effectively implemented fiduciary 
duty has more potential to offer in this one area than in 
virtually any other area subject of broker-dealer conduct.
    Ms. Waters. Thank you very much.
    Mr. Ehinger. Congresswoman Waters, may I make a statement, 
please?
    Ms. Waters. Yes, you may.
    Mr. Ehinger. I would just like to add that variable 
annuities, as Ms. Roper points out, are a substantial and 
important retirement savings vehicle for millions of Americans 
and also that the concerns and some of the issues that have 
been raised over time about some of the sales practices have 
been very directly and deliberately and I think in a very 
detailed fashion addressed by FINRA and specifically in rule 
2330, giving us in the broker-dealer community the ability to 
not only know specifically what are the actions, what are the 
reviews that we should take, but providing that guidance very 
directly--
    Ms. Waters. Thank you very much.
    I want to understand FINRA. I understand that FINRA 
maintains a large investment portfolio. What do they invest in 
and how do they control for inherent conflicts of interest that 
arise from investing with broker-dealers when they regulate 
broker-dealers? Can you help me understand that?
    Mr. Ketchum. Sure. That is a great question, Ranking Member 
Waters.
    First, we have a substantial investment portfolio, which 
allows us to defray some of our costs of regulation. Because we 
formerly had responsibility for the NASDAQ stock market, and 
through the spinning off of NASDAQ--we do have a substantial 
investment portfolio as a result of the spin-off of the NASDAQ 
stock market which our predecessor organization, the NASD, 
formerly owned.
    With respect to the concern of conflicts, we solve it by 
not investing in broker-dealer securities or, where we do, by 
doing it only with respect to fixed-income securities where 
there is an absolute wall provided with respect to anybody with 
regulatory responsibility with regard to those fixed-income 
investments and review of those investments.
    So, essentially, our investment committee and employees who 
have no regulatory responsibility are the only ones who are 
aware if and when we have investments with respect to fixed-
income securities.
    Ms. Waters. Could you also comment on the compensation of 
your 10-person board of directors? According to its most recent 
financial report, FINRA paid 8 members of this 10-person board 
of directors more than $1 million each in 2010. Cumulatively, 
the board members earned more than $4.7 million, up from $10.6 
million that the board received in 2009. Could you comment on 
the procedures that you use to compensate executives and board 
members?
    Mr. Ketchum. Let me take board members first, and then I 
will take employees, which I think is the primary focus of your 
question.
    Our board members receive compensation ranging from between 
$50,000 and $70,000, depending on their committee 
responsibilities. That compensation is reviewed regularly by 
our Management Compensation Committee. That is a matter that 
obviously is a substantially lower compensation than a--
    Ms. Waters. This information that I have is not correct 
about--in your most recent financial report, you paid 8 members 
of your 10-person board of directors more than $1 million each, 
is that incorrect?
    Mr. Ketchum. I believe, Ranking Member Waters, you are 
referring to our employees, not our board members. None of our 
board members, with the exception of myself as an employee, 
received more than $70,000.
    Our employees are paid more. I do believe that it is a good 
idea to have persons with experience and also to ensure that 
they stay at an organization for longer terms than those at the 
SEC--even though I am a loyal alumnus--usually manage to stay. 
We do pay for experience, and we do pay for ability and 
capability, yes.
    From your question, the determination with respect to those 
compensation levels is done by a Management Compensation 
Committee composed of only public members, i.e., persons who 
have no affiliation with the industry. They review our 
competitors, the various places that our employees leave and go 
to, or where we track employees in determining what is an 
appropriate compensation level.
    Ms. Waters. Thank you. I yield back the balance of my time.
    Chairman Garrett. Thank you.
    The chairman is recognized.
    Chairman Bachus. Thank you.
    In proposing the SRO, one of the bases of that was one of 
the Democratic members of the SEC, Commissioner Walter, had 
endorsed that approach as beneficial to--and of course, she was 
General Counsel of the CFTC, and then she was appointed by 
President Obama as the acting Chairman of the SEC in January of 
2009. And there is some bipartisan support for the SRO.
    I would like to just introduce--I am sure those of you who 
are opposing that, you have looked at her testimony, her 
position, and that is that the SEC would do a better job on a 
lot of other responsibilities they had.
    Having said that, I understand, Mr. Irwin, you mentioned--
and Mr. ``Tittsworth''--is that how you pronounce it?
    Mr. Tittsworth. It is ``Tittsworth,'' believe it or not. I 
couldn't believe it when my mother told me.
    Chairman Bachus. My name also causes some problems.
    But I do understand your concern about who oversees FINRA 
and also concern State regulators that--in fact, Congress 
specifically brought State regulators back into regulation 
because of some failures. I think a lot of us do not want to 
ignore the States' role. It is very important.
    You look at the Stanford case. You had a State regulator, 
and you also had the SEC. Those were the two regulators in 
Stanford. And Madoff, who was the investment adviser for the 
Ponzi scheme that was operated, which was the SEC's 
responsibility again. I think we would all acknowledge the SEC 
and sometimes State regulation has failed.
    Now, with Madoff, there was an investment, there was a 
broker-dealer, but he moved the fraudulent business. The Ponzi 
scheme was clearly not in what FINRA regulated.
    And I do understand--you have talked about accountability 
and transparency, that FINRA--you are concerned about that. You 
are concerned about pre-empting your role. You are concerned 
about--and I do acknowledge--and I would ask Mr. Ketchum maybe, 
too. And we are going to meet with Mr. Irwin, I think after 
this hearing.
    You have talked about if we do this enhanced oversight of 
FINRA. And I think if we are able to come to some bipartisan 
agreement, I think there would have to be some protection for 
State regulators or roles for State regulators. There would 
also have to be some enhanced maybe oversight and transparency 
in the case of FINRA. I think that would be an improvement.
    And I would ask Mr. Ketchum or Mr. Irwin if you all want to 
comment on what I have said. I don't know if that is a 
question. I usually ask short questions.
    Mr. Irwin. I can assure you, Chairman Baucus, that if Joe 
Borg, your securities administrator in Alabama, had gotten the 
Markopolos report, things would have been different.
    Chairman Bachus. I can tell you that wouldn't have happened 
under Joe Borg in Alabama.
    Mr. Irwin. Absolutely not.
    And as to Commissioner Walter's reaching out in an SOS for 
help, she absolutely is. And I understand that, without 
sufficient resources, they are really hamstrung and unable to 
exercise their strong, robust role of oversight over FINRA. It 
takes a village. There is a role for an SRO.
    Mr. Ketchum and I agree on a lot of things. We agree that 
there is a gap in oversight of a large portion of investment 
advisers, and Congress has set out to fix that problem with the 
$25 million to $100 million.
    We are prepared, the States are prepared to take on that 
responsibility. We have asked for it for 5 consecutive years. 
We have increased the number of exams that we have done. We 
have come up with a number of strategies to speak to the 
additional responsibilities that we have. We have a memorandum 
of understanding that every State has signed, agreeing to do 
joint examination, to work with each other, to have uniform 
exam procedures, better risk analysis.
    We can do this job. Give us the opportunity to do it, and 
we will show you that we can.
    Chairman Bachus. Mr. Ketchum and Mr. Tittsworth, if you 
would like to comment?
    Mr. Ketchum. Chairman Bachus, just a few things to your 
both thoughtful and complex question.
    First, it does take a village to regulate what has been 
done on the broker-dealer side. I have the highest respect for 
Mr. Irwin's program in Pennsylvania. And surely for Joe Borg's 
program in Alabama.
    What has worked on the broker-dealer side is the 
cooperation and consistent effort with concern for investor 
protection across both government and SRO resources. What is 
valuable is supplementing those resources, particularly when 
they are less; and not all States have the resources that the 
State of Pennsylvania or the State of Alabama may have to apply 
to do investment adviser oversight.
    Second, I do want to make this absolutely clear, and I know 
I will save a question from Chairman Garrett by doing this: 
FINRA takes accountability, just as the SEC has taken 
accountability, just as any State that has touched it should 
take accountability, for not finding the Madoff problem. Yes, 
in our situation, sadly, we did not get a Markopolos complaint. 
Sadly, Mr. Madoff covered his activity on the money management 
side by having zero, no records, with respect to the broker-
dealer and denying that he engaged in a money management 
business on the broker-dealer.
    That made it hard. Hard is not an excuse for not finding 
it, and we accept that. We did a study from our board to take a 
hard look at that, and we have fundamentally revised both our 
examination and enforcement programs to try to get at the hard 
cases.
    But what is important from a regulatory policy standpoint 
is that it isn't a good idea to make it hard. If FINRA had 
responsibility from the standpoint of Madoff as an investment 
adviser when it finally did regulate it, we would have 
immediately done a membership interview, we would immediately 
have done an examination of Madoff, and that was something the 
SEC did not have the resources to do.
    Chairman Bachus. But I think my question is, would you be 
willing to accept enhanced oversight by the SEC or by the other 
government regulators, including the States, in accountability?
    Mr. Ketchum. Yes, we would. We feel like we have 
substantial oversight from the SEC already. We accept the 
Boston Consulting Group's suggestions that oversight should be 
more thorough and more complete.
    We recognize that if we did have responsibility for 
investment advisers on the State side, which is obviously a 
choice of Congress and not ourselves, that the consultation 
required and the interaction with respect to State regulators 
would be absolutely critical because it is State laws that 
FINRA would be essentially incorporating to supplement the 
State program.
    I would note that never in our wildest imaginations would 
we ever imagine a situation where a FINRA rule should preempt 
State regulations. State rules and regulations are critical to 
investor protection.
    Chairman Bachus. I think in the past, the States have not 
always had some transparency or access to some of the 
information. If the committee could bear with me and let him 
have maybe 30 seconds to respond?
    Chairman Garrett. Sure, Mr. Chairman.
    Mr. Tittsworth. Thank you, Mr. Chairman.
    I agree this is not a partisan issue. I noted that the U.S. 
Chamber of Commerce issued a recent report talking about 
FINRA's lack of accountability. And all regulators have had 
shortcomings. It is not a job I particularly want to have. But, 
unfortunately, none of us have found the silver bullet.
    I think there is an issue. We have recognized it. The 
question is, how fast do you address this issue of enhancing 
investment adviser examinations?
    And I thought you said it best, Chairman Garrett, in your 
opening statement with Madoff. There were failings all the way 
around on that and I am not sure that is the best case to build 
this policy around enhancing investment adviser oversight. I 
think maybe we need to just take a step back and look at the 
facts and try to figure out the best approach.
    Chairman Bachus. Right. Let me say, Mr. Ketchum, you were 
not on the job. I understand you have made a lot of reforms, 
and I applaud the job you are doing. You are doing a very good 
job. I wasn't trying to point out a failure. Because I think 
everyone failed, everything failed, and certainly the Congress 
is not without blame.
    Thank you.
    Chairman Garrett. I thank the gentleman.
    The gentleman yields back, and we will be a little loose 
with additional time on this side of the aisle as well. I 
assume we are just going to go right down the aisle.
    The gentleman from California.
    Mr. Sherman. Believe it or not, I don't have a whole lot of 
questions, but I do have one for Mr. Healy. Why does the 
National Association of Insurance and Financial Advisors want 
FINRA to become the SRO for investment advisers? That will be 
the first question, and I will have a follow-up.
    Mr. Headley. It is Mr. Headley, but that is fine.
    Mr. Sherman. If I hired staffers based on their 
handwriting, it would be different. Go ahead.
    Mr. Headley. I think it is quite simple. Two-thirds of our 
NAIFA members are registered representatives through a broker-
dealer, and 40 percent of that population are also registered 
as investment advisers--investment adviser representatives 
under the corporate RIA of the broker-dealer. Since there is 
the dually registered representatives, it seems the most 
effective or efficient and cost-effective method, since we are 
already examined by FINRA through our broker-dealer compliance 
areas on an annual basis through an annual face-to-face 
compliance meeting, that it would be best to not layer on an 
additional burden or hardship in terms of having an additional 
examination process.
    Mr. Sherman. Your members are willing to pay an additional 
user fee?
    Mr. Headley. Again, we think it would be more cost 
effective if FINRA was named as that self-regulatory 
organization.
    Mr. Sherman. Are all of your members already paying a user 
fee to FINRA? Or this would mean some of them would be paying 
and others might be paying a bit more?
    Mr. Headley. They are paying, obviously, registration fees 
both to FINRA and, of course, to each of the States in which 
they are securities registered.
    Mr. Sherman. Okay. And the SEC has, I think, not been doing 
all that the SEC would like to do in this area. I assume one of 
the reasons is they are not collecting enough in user fees or 
they are not collecting a user fee from your members to do that 
work directly?
    Mr. Headley. Right. Again, the majority of our members are 
dealing with middle-class investors and Main Street investors 
and everything else and do not have the assets under management 
to kind of meet the threshold with SEC registration.
    Mr. Sherman. I yield back.
    Chairman Garrett. The gentleman from Arizona.
    Mr. Schweikert. Thank you, Mr. Chairman.
    In going over the notes here, I had one that looked as if 
the SEC was suggesting that implementation of these major 
changes for broker-dealers would not have much in the way of 
cost changes. Can I solicit a response on that? And why don't 
we--
    Mr. Ehinger. Yes. Thank you.
    In my opinion, there would be significant changes. I think 
you would start with--first of all, not knowing what the rule 
is, the documentation expectations of interactions with 
clients, decisions made regarding what was to be invested in or 
what not--even decisions of what not to do. Investing is a 
whole different type of scenario in terms of expectations of 
what the registered representative would need to do. There 
potentially are additional registration-type fees that could be 
associated with the business, and the other concern would be 
the model may need to shift or might potentially shift even as 
a result of some of the changes being proposed.
    Mr. Schweikert. Ms. Roper, the same sort of question. Do 
you agree or disagree that we would see the scaling of 
additional costs here?
    Ms. Roper. There will clearly be additional costs in 
certain areas. For example, an investment adviser has to 
provide up-front disclosure about conflicts of interest and 
material information that brokers don't have to provide. There 
is a cost with that. Many of the brokers are doing that now for 
their advisory accounts. But there is an offsetting savings to 
the investor if the broker has to take costs into account in 
making their recommendations.
    Furthermore, the criticisms about cost ignore the fact that 
the SEC took those into account in coming up with the proposal 
that it put on the table. It is not going to eliminate the 
broker-dealer Investment Adviser Act exclusion. There is no new 
registration. They have made clear that the broker-dealer 
business model, commissions, proprietary sales, all of that 
stays the same. Most of the cost data that has come from the 
broker-dealers has analyzed a scenario that is simply not on 
the table.
    The SEC has in fact been very sensitive on the issue of 
costs. I think that is why you have seen groups like FSI and 
SIFMA at the table in a negotiation about how to implement 
rather than simply trying to prevent this rulemaking from going 
forward.
    Mr. Schweikert. Thank you, Mr. Chairman.
    Mr. Ketchum, same question.
    Mr. Ketchum. I agree with much of what Ms. Roper said. I 
think the SEC is focused on costs here. We do believe that a 
properly implemented fiduciary standard makes a great deal of 
sense, and we also believe there should be a very careful 
analysis of the costs and approach. There will be some costs 
increased by changes in disclosure requirements and the type of 
up-front disclosure that Ms. Roper indicates, although FINRA 
already requires a variety of disclosures with respect to a 
product-by-product basis consistent with its rules. It is 
better to do that across-the-board. It is certainly appropriate 
to make sure that there is a careful cost analysis before 
making final decisions.
    Mr. Schweikert. Mr. Chairman, to the entire panel--and I 
said this in my opening statement, when reading through this 
material, you start to say, okay, what am I missing? Where is 
my law of unintended consequences? Do I wake up 2 years from 
now and either with one or two more layers and have I either 
narrowed consumer choice, have I started to create an 
environment where my access to information--
    Because I have heard a couple of folks say that we have 
these cost differentials. But, before getting this job, I 
remember trading stocks for $7 a share, but I also sometimes 
would sit down with my investment adviser and have to write him 
a check at the end of the day. I see lots of consumer choice 
right now and the inherent fear is, does any of this put some 
of that in peril? I was going to start with Mr. Tittsworth. And 
tell me, am I engaging in a fear that is inappropriate?
    Mr. Tittsworth. I can't tell you those are unjustified 
fears. I guess I would have to say--I am not trying to avoid 
the question, but I would have to see the SEC actual proposed 
rulemaking I think before I could intelligently respond to your 
question.
    We certainly don't want to see consumer choice limited by 
any action on the 913 study. And we make a point in our 
statement that under the Advisers Act currently, there is a 
huge broad range of activities that investment advisers, both 
very small businesses, as well as some very global firms, 
engage in. I think it accommodates--we certainly don't want to 
limit consumer choice.
    Mr. Schweikert. Thank you.
    Mr. Chairman, my time is up. Thank you, sir.
    Chairman Garrett. The gentleman is recognized.
    Mr. Hinojosa. Thank you, Chairman Garrett.
    First, I ask unanimous consent to enter into today's record 
two documents relevant to today's hearing: one, the petition 
supporting a fiduciary standard for financial professionals, as 
outlined in Section 913 of the Dodd-Frank Act; and two, is the 
petition requesting that the SEC extend the fiduciary standard 
to broker-dealers.
    Chairman Garrett. Without objection, it is so ordered.
    Mr. Hinojosa. Thank you.
    Mr. Hinojosa. My first question is directed to Mr. Ketchum. 
Thank you for testifying today.
    I would be remiss if I did not acknowledge FINRA's investor 
education foundation and its solid financial literacy 
activities which we strongly support. However, I am concerned 
that FINRA does not provide the kind of transparency necessary 
to provide investors the type of education they need to protect 
themselves while operating in the capital markets. How is FINRA 
qualified to be a self-regulatory organization for investment 
advisers given this failure to uncover the Madoff fraud that 
wrecked the lives of so many innocent Americans?
    Mr. Ketchum. First, Congressman, thank you for your kind 
words with respect to our education foundation. We appreciate 
it.
    As I indicated before to Chairman Bachus' question, no 
regulator can be happy with missing Madoff. And that includes 
FINRA as well as the SEC as well as State regulators. Certainly 
it includes FINRA, notwithstanding the fact we did not receive 
the complaints that Mr. Markopolos lodged, notwithstanding the 
fact that Mr. Madoff fabricated and created zero records with 
respect to the money management activity in his broker-dealer 
and claimed to have no money management activity in the broker-
dealer.
    Having said that, there were strings we could have pulled. 
There were approaches we should have taken. We should have had 
knowledge of discussions out in the industry that raised 
concerns.
    So I absolutely take accountability. I think any regulator 
should. Though if you eliminated all of the regulators that did 
not find Mr. Madoff's fraud, you would be out of regulators in 
the United States.
    I think the question, as I say, is not whether any of us 
did it right with respect to Madoff. We didn't. The question is 
whether regulation can make it less hard to find serious 
frauds--put Madoff aside--to find serious Ponzi schemes.
    The answer would be, if there was an SRO to supplement 
government resources, an SRO that would have the ability, as 
FINRA does, to do management reviews and to do membership 
reviews before a firm can become a member of FINRA--and any SRO 
would do the same things--you would increase the likelihood of 
detecting a Ponzi scheme such as Mr. Madoff's and others. That 
is why I think the addition--not as a replacement for 
government, which is absolutely critical for the protection of 
investors--but the addition of an SRO from a supplementary 
standpoint is a very valuable thing.
    Mr. Hinojosa. So the argument that we need a smaller 
Federal Government does not work. I hear my friends on the 
other side of the aisle that they want a much smaller Federal 
Government, and you are telling me that we really need more 
folks regulating.
    In looking at the statement by Commissioner Irwin, I would 
like to ask him a question. Commissioner, you said that the 
enforcement actions by State security regulators last year 
represent a 51 percent increase over the number of 
investigations reported for the previous year. I was amazed at 
the number of violators.
    So, tell me, what are your thoughts on how we can improve 
the requirements of all of these certified and listed companies 
to protect investors? The Federal Government's Thrift Savings 
Program makes available to us detailed information such as fund 
performance, annual returns on investments, the monthly returns 
on our investments, and, perhaps provides our constituents 
access to market information that is detailed but easily 
understood, and summaries to help our constituents estimate 
their net worth. Give me some of your thoughts on that.
    Mr. Irwin. Congressman, I think that one of the easiest and 
best steps that we can take right away is making a fiduciary 
duty applicable to all investment professionals who are 
offering investment advice in a personalized nature in a retail 
setting. The fiduciary duty that was proposed in Dodd-Frank 
that we were pushing for at that time was much broader than the 
one that ultimately was enacted. The one that ultimately was 
sent to the SEC to study was one that was really very limited. 
There was no ongoing obligation to supervise accounts after 
that decision is made.
    If we just ask investment advisers and broker-dealers who 
are giving investment advice to put their clients before 
themselves, it is not the best advice. It is just a matter of 
putting, based on what they know, the interest of their 
customer before themselves. Those customers will automatically 
be better off.
    We live in a time when the kind of returns that people are 
seeing are very small. You just can't double your money by 
putting it in, and compounding interest won't do it for you for 
the rest of your investing career. We really need to provide 
this.
    Fiduciary duty is a very flexible answer. It is based on 
the facts and circumstances of each situation. It has worked 
since 1963 when the Supreme Court said in the Capital Gains 
case--and investment advisers are subject to that Act. We think 
that we have plenty of history, plenty of case law to build on. 
Let's do that today.
    Mr. Hinojosa. In closing my questions, at my request, the 
Office of Financial Education was created at the CFPB. There 
are numerous financial literacy programs that could help not 
only high school students but community college students, the 
university students, and adults.
    With that, Mr. Chairman, I yield back.
    Chairman Garrett. The gentleman from New York is 
recognized.
    Mr. Grimm. I thank the chairman, and thank you to all who 
testified today. We appreciate it.
    Obviously, this is a very difficult matter. We hear from 
the larger institutions a little bit of a difference of opinion 
from the smaller, more small-business-oriented institutions, 
SROs versus SEC, and so on.
    But one of the things I want to emphasize--and Ms. Roper, 
if I can turn to you, you mentioned about the consumer saving 
thousands of dollars and, over time, tens of thousands of 
dollars. But there are other factors as well. And I am asking 
you if you would agree that when a representative--when an 
adviser or a registered rep is selling a product, there are 
other things other than just the rate of return that are also 
looked at. For example, the customer service of the company 
that you are dealing with and the financial background of that 
company and the stability and the track record that they may 
have had for many years, is that not also something that goes 
into it?
    Ms. Roper. Absolutely. And we have tried to indicate that 
cost is just one factor that is relevant to that assessment. 
But it is a factor that shouldn't be ignored. Morningstar not 
too long ago did research that indicates that cost is the 
single best predictor of long-term performance and is better 
than their star ratings, for example. I think you ignore it at 
your peril or at least at an investor's peril.
    But, absolutely, you adopt an approach, much as we do 
under, say, our best execution standard where you provide 
guidance regarding a variety of factors that have to be 
considered. But they have to be considered, and we can't afford 
to continue to ignore costs.
    Mr. Grimm. In your recommendations to the SEC, you asked 
the SEC to look not only at the prior enforcement actions but 
at cases that could have been brought as well. You went on to 
suggest the SEC should examine what could be accomplished under 
an aggressively enforced standard.
    I take from that--and based on my background as a former 
special agent in the FBI, I worked very closely with, back then 
it was the NASD and with the SEC. And when I look at a lot of 
what happened--everyone keeps bringing up Bernie Madoff, and I 
understand that this was such a travesty, the magnitude of his 
fraud. But I would say the biggest problem we have had is a 
lack of enforcement, and it is the enforcement that we really 
need to focus on. And we can promulgate rules until we are blue 
in the face, but if they are not enforced, they are irrelevant.
    Ms. Roper. Yes, you absolutely need enforcement. And we, of 
course, are strong supporters of enforcement. But if you don't 
have the standard to enforce--it is two sides of the same 
picture. If you can't enforce a best-interest standard because 
the standard doesn't exist, tough enforcement doesn't get you 
anywhere. If you have a best-interest standard and you don't 
enforce it, the best-interest standard doesn't get you 
anywhere. You need both sides of that equation.
    Mr. Grimm. I agree that we need both. But I think 
ultimately, we also need to be cognizant of the fact that it is 
a balance. We have to balance making sure that investors and 
consumers are protected, while at the same time balancing the 
fact that our markets and our sectors within the financial 
services sector are also robust and competitive not only here 
in the United States but in the global markets that we are in.
    That being said, if I could just switch a little bit and 
ask Mr. Ehinger, can you walk us through the various levels of 
the regulatory oversight facing a broker-dealer and its 
registered representative, compared to the investment advisory 
firm and its registered investment advisers?
    Mr. Ehinger. I think one of the best examples, Congressman, 
to describe that is just my recent experiences with 
examinations just recently with FINRA and also the SEC. The SEC 
was in and had conducted an examination both of our investment 
adviser and our broker-dealer, and shortly thereafter, FINRA 
was in as well. They were in on their cycle exam within 2 
years. The SEC hadn't been in on the investment adviser side 
for 5 years. And we are a corporate registered investment 
adviser, so I would think that there would be more attention 
given to some of the bigger firms.
    But just the differences are the detail, the activities, 
the selection of individual accounts, the reviewing with 
individual supervisors in our organization about why they chose 
to approve or not approve a particular product sale that had 
taken place. That is the level of detail that the FINRA 
examination had.
    With respect to the SEC, while there are very good 
individuals in all fronts working to do what they can do, there 
was one individual who was looking at the investment advisory 
and specifically only focused on advertising, which is, I 
think, ironically where there are rules that they can really, 
really audit to, as opposed to something that is vague and 
amorphous like fiduciary standard.
    Mr. Grimm. My time has expired. Thank you very much.
    Chairman Garrett. Thank you.
    Mr. Lynch is recognized.
    Mr. Lynch. Thank you, Mr. Chairman.
    Staying right on that, Mr. Dwyer, your testimony more than 
suggests, it actually endorses the idea that FINRA would be the 
body best suited to oversee inspection of investment advisers. 
I have heard a couple of different people who apparently are in 
agreement with you, but can you expand on why you think FINRA 
is a better option than, say, a new and improved SEC or a newly 
created SRO that is specifically designed and funded for this 
purpose?
    Mr. Dwyer. Thank you, Congressman Lynch. That is an 
important question.
    We heard here about problems that have arisen across the 
spectrum of regulators that have been in place, and I go back 
to the comments I gave in my oral testimony, that, as we look 
at what is reasonable, the supervisory needs that we have, I 
would turn to precedent, first of all; and the SEC has over 70 
years of history of overseeing an SRO that in turn provides 
oversight to the industry; and that, first and foremost, to me 
sets a track record that makes FINRA an obvious choice.
    Also, the reality or the practicalities of what is in 
place. Today, FINRA has an elaborate structure to do audits of 
institutions and offices all across the country, they have over 
1,000 employees already who are out doing exams across the 
country, and there is no question in my mind that they are far 
and away best positioned to take on this task.
    The significance of it should not be taken lightly; and I 
would say that, no matter what the organization, we need to 
continue to work with them to improve how they protect the 
customer.
    I think one of the things that needs to be called out is 
who our advisers are. As I represent the Financial Services 
Institute today, representing over 200,000 independent 
financial advisers across the country, what that means is that 
these are local business owners who are providing services in 
communities all across the country. They are also community 
leaders. They are also extremely philanthropic.
    At the end of the day, when we surveyed our advisories a 
year ago at LPL Financial, about 86 percent of them told us 
that their number one source of clients is referrals. It is 
paramount to them that they are able to work with clients and 
build confidence with those clients to lead to additional 
business. They need to operate in an environment where the 
consumer has confidence and clarity about where they are going 
to, who they are going to do business with, and how that will 
be transpired.
    Mr. Lynch. Thank you.
    Ms. Roper, if I could ask you, on the fiduciary standard, 
it seems from your testimony that you agree with the SEC's 
position of--at least as I see it, the Department of Labor has 
recommended that we adopt the ERISA standard and apply that to 
both broker-dealers and advisers. How do you support that? How 
do you argue in favor of harmonizing both groups under that 
standard, as opposed to coming up with a standard that is more 
exacting or something more--rather than lifting the standard 
and simply applying something that is more targeted?
    Ms. Roper. We actually have fairly significant concerns 
about the Department of Labor proposal, although we recognize 
it as very well intended and think there is a potential to 
resolve the difficulties.
    Mr. Lynch. Let me say, I may have--it seemed like you were 
warm to the idea, but you really weren't beating the drum, so 
to speak. But I could sense there was not clear opposition to 
that idea in your testimony anyway.
    Ms. Roper. The issue we addressed in our testimony is the 
fact that the DOL proposal should not be allowed to stop the 
SEC proposal.
    The concerns that we have about the DOL proposal are that 
it doesn't more closely resemble the SEC proposal, and it is in 
two different aspects. One, it has a huge seller's exemption in 
it and threatens to recreate in the retirement plan market 
precisely the problem the SEC is trying to address here.
    Sort of at the other end of the spectrum is that I think 
the broker-dealer firms are absolutely right when they say, if 
you apply an absolute ERISA, no conflict of interest, no third-
party compensation model in particularly the individual 
retirement account arena and with the sanctions that exist 
under ERISA, the broker-dealers are going to exit that 
business--$2,000-a-year investors are not that enticing a 
market, and there are not a lot of fee-only financial planners 
or fee-only advisers who are going to step in and provide those 
services.
    So, yes, we have concerns about the DOL proposal. We are 
not, by any stretch of the imagination, advocating that it be 
adopted in the SEC world. Quite the contrary. We would like to 
see something under the DOL proposal that more closely 
resembled the SEC. That is primarily an issue with ERISA rather 
than with the definition itself. And the key issue--one of the 
key issues is how will they do the prohibited transaction 
exemptions which seem to have sort of replaced ERISA as the way 
the law is imposed, and I don't think you can move forward with 
the proposal until you know the details of what it would look 
like in practice.
    Mr. Lynch. Okay, that is very reassuring and very helpful.
    Thank you. I yield back.
    Chairman Garrett. Thank you.
    The gentleman from Florida.
    Mr. Posey. Thank you very much, Mr. Chairman.
    Clearly, Madoff was not empowered by a lack of loss. He was 
empowered by a lack of enforcement, and there is not a single 
law that would have changed that, that we could adopt now. If 
we could do it all over again, the only thing that would be 
needed to stop Madoff was to make some employees do their jobs, 
which they were unwilling to do.
    As another related issue regarding ERISA, there was a 
company named TRG. It was one of about a dozen that wrote 
health insurance in 49 States, every State but their own State. 
No State felt like they were empowered to do anything about it 
because they were protected by ERISA, protected from State 
sanctions until finally Florida did break loose and in 
cooperation with 13 agencies in other States they went to the 
culprit State, and it was the first time in history State lines 
were ever passed to prosecute health insurance fraud, and that 
was done because the Federal Government did absolutely nothing 
to enforce the law to those who fell under ERISA and seemingly 
out of the hands or ability to prosecute by States.
    I support fiduciary standards, but they must be clear, they 
must be unambiguous, and they must not be conflicting. And 
obviously, I think one agency is sufficient to promulgate such 
standards, and I think the more agencies you have involved in 
it, the worse it is going to be on everybody.
    And to that point I would like to ask Mr. Headley, since it 
was in his written testimony he talked about the Department of 
Labor's fiduciary proposal in addition to the SEC proposal that 
we have been discussing today. Mr. Headley, I would like to ask 
you to explain why you believe the Department of Labor's 
proposal could impact the middle-market investor's access to 
professional guidance for their retirement plans, if you would 
be kind enough to do that.
    Mr. Headley. Thank you, Mr. Congressman.
    First of all, again, on the DOL fiduciary duty, there was 
no congressional directive to look at this. It clearly 
conflicts with the SEC's fiduciary duty, what they are 
proposing for broker-dealers and investment adviser 
representatives. It clearly is using ERISA to overreach into 
another section of the Internal Revenue Code as it pertains to 
IRA account holders and everything, that is differentiated from 
the employer context. It would require that no Commission-based 
products could be implemented, requires a level fee model in 
lieu of that. It could literally shut down the middle-class 
access to professional advice and for IRA account owners.
    I think the two areas that NAIFA members would like to see 
is that, if they were to go forward, is to simply exclude IRA 
advice from the rule and, secondly, to exclude any advice under 
a seller's exemption that is incidental to the sales activity.
    Mr. Posey. Okay, I appreciate your comments.
    Would anyone else like to weigh in on that?
    Mr. Headley. Thank you.
    Mr. Posey. I am finished before my time, and I yield back. 
Thank you, Mr. Chairman.
    Chairman Garrett. How about that?
    The gentleman from Colorado, I think we are skipping over, 
I believe, and we go to the gentleman from Colorado. Since he 
was here, we appreciate your coming.
    Mr. Perlmutter. Just a couple of things.
    Mr. Taft, it was your comments and your written remarks 
that I want to focus on a little bit.
    The rulemaking--going back and looking at 913, obviously in 
913, the Congress directed the SEC to go through this 
rulemaking process. It wasn't something they just went out on a 
lark to do as I understand the legislation. Yes, sir?
    Mr. Taft. If I could just clarify, it authorized--it 
directed the SEC to study the issue. It authorized them to act 
but does not require them to act.
    Mr. Perlmutter. Thank you, and I think that is a perfect 
description. We asked them to look at a number of different 
things, including harm/benefit analysis. Whether they did or 
they didn't, I am not sure, but in the directions from the 
Congress, those are clearly included.
    But when I really look now at the language, the standard of 
conduct--because you talk about the rulemaking to articulate 
the standard would address the following five key components: 
core principles, articulate the scope of obligations under a 
uniform fiduciary standard, define personalized investment 
advice, and then a couple more.
    When I look at the standard of conduct as it applies to the 
Securities Exchange Act of 1934 and then the standard of 
conduct as it applies to the Investment Act under what we did 
in Dodd-Frank, they seem to be pretty similar. It says the 
Commission may promulgate rules to provide that with respect to 
a broker-dealer when providing personalized investment advice 
about securities to a retail customer, the standard of conduct 
for such broker-dealer with respect to such customers shall be 
the same as the standard of conduct applicable to an investment 
adviser under Section 211. And then it says, Ms. Roper, the 
receipt of compensation shall not in and of itself be 
considered a violation.
    One of the things you were talking about is an 
underwriter--a life underwriter might propose a product that 
they make more money on, but we said specifically that really 
doesn't have to be an issue.
    Then it goes down to the standard of conduct for the 
investment adviser. The Commission may promulgate rules for all 
broker-dealers, investment advisers when providing personalized 
investment advice about securities to retail customers shall be 
to act in the best interests of the customer.
    Do we even need any rules or is this standard of conduct 
that we have stated in Dodd-Frank enough, I guess is my 
question, when we say it has to be in the best interests of the 
customer?
    Mr. Taft. What Congress--my understanding of congressional 
intent, what Congress told the SEC they need to do if the SEC 
decides to write a fiduciary standard is to build a standard 
the investor protection characteristics of which are no less 
stringent than those in the Adviser Act, and--
    Mr. Perlmutter. My question, though, to you--and I agree, 
that is what it says, ``no less stringent.'' It says--in fact, 
it says ``the same.''
    Mr. Taft. Right.
    Mr. Perlmutter. If you look at the standard of conduct.
    Mr. Taft. Yes, the same.
    Mr. Perlmutter. It says, ``the same.'' It says, 
personalized investment advice about securities retail 
customers in the best interests of the customer with regard to 
the financial or other interests of the broker-dealer, etc. Do 
we need any--
    Mr. Taft. Yes, here is what you need: So, today, the 
standard of care that is a fiduciary standard of care is 
implicit in the Advisers Act and governs a set of activities 
that have to do with a customer walking into their adviser and 
handing over their money to the adviser to manage 
discretionarily. In other words, they are ceding control in a 
fundamental way of the management of those assets to an 
adviser. And there have been rules and there is case law and 
there is precedent built up over the years that operationalize 
that fiduciary standard with respect to the things an 
investment adviser does for their client.
    Okay. What we need going forward, if the SEC decides to 
apply a similar standard to the activities of broker-dealers 
who engage in personalized investment advice, we need rules 
that tell us how to operationalize that same standard to 
brokerage activities, to which that standard has never applied 
and for which rules do not exist today. That to me is the 
single most important thing the SEC would still need to do in 
writing a new standard.
    And back to the many comments of Congressmen, of the 
committee, it is important to note today that those rules have 
not been written, and going forward there is a chance to write 
them the right way, a way that aligns with the current best 
practices of the industry and which is not disruptive to 
investor relationships with their advisers. And there is a way 
to do that the wrong way which disrupts investor's 
relationships with their advisers, increases costs, reduces 
access. So right way-wrong way, we are at a fork in the road. 
The SEC still has the opportunity to go down either path.
    Mr. Perlmutter. Okay, and my time has expired. Thank you. I 
could ask the rest of the panel that same question, but thank 
you.
    Chairman Garrett. The gentleman yields back, and I don't 
believe--no, we have no one else, at least at this moment. Mr. 
Green?
    Mr. Green. Thank you, Mr. Chairmanand I thank the witnesses 
for appearing today.
    For clarity purposes, if you are of the opinion as a 
witness that we need no additional regulations, would you 
kindly extend a hand into the air that things are fine as they 
are, we just need more enforcement? Anyone?
    Okay, we have one person who thinks so.
    How do you respond, sir, to the contention that enforcement 
necessitates something meaningful to enforce? I believe that is 
a fair way of putting it. Ms. Roper, you may have stated it 
more eloquently than I, but how do you respond to this 
contention?
    Mr. Ehinger. Congressman Green, first of all, I should 
qualify my statement in terms of, I am not saying there 
possibly shouldn't be any type of new regulation over time. I 
am just answering that question with respect to what is being 
proposed today.
    Because I think it needs to be clear, as we stated earlier 
and, actually, Chairman Garrett said before, what problem are 
we trying to solve? And, also, do we really understand and have 
we really done investigation regarding the broker-dealer 
standards today and how that--
    Mr. Green. Because my time is limited, permit me to just 
intercede. And I don't mean to be rude, crude, and unrefined, 
but let me ask this, please: What would you propose? I do 
understand now that you don't support what we are doing today, 
but what would you propose that we do?
    Mr. Ehinger. I would propose a couple of different things.
    One, I would agree with Mr. Taft that rules, really 
guidelines, guidance that we can, as broker-dealer 
organizations, really train and educate and really help our 
registered reps understand--
    Mr. Green. If I may, let me intercede again. Please forgive 
me.
    But I have in my hand intelligence from the RAND--a RAND 
Report indicating that investors could not identify whether 
their own provider was a broker or investment adviser, and that 
confusion persists even after the investors were provided with 
fact sheets on investment advisers and brokers that include a 
description of their common job titles, legal duties, and 
typical compensation practices.
    Mr. Ehinger. Congressman Green--
    Mr. Green. You seem to be implying that somehow disclosure 
will do what is not being done even when people are afforded 
empirical evidence to examine.
    Mr. Ehinger. I think that study--that 2008 RAND study also, 
and I believe one of my fellow panelists mentioned this as 
well, also found that investors were satisfied with their 
financial advisers or consultants or registered representatives 
in whatever fashion that they engaged.
    That confusion is not something I think you solve by 
changing legal standards. I think confusion is addressed first 
and foremost by, respectfully, proper disclosures. I think Mr. 
Ketchum, in one of the rule proposals that FINRA put forward, 
Rule 1054, is doing that very thing, actually I think in a very 
forthright and very smart fashion. That is, simple, direct, 
easy to understand and read disclosures that take advantage of 
today's technology and allow deeper dives for those who want to 
know.
    Mr. Green. I am going to ask at this time that Ms. Roper 
kindly respond. I can sense that you desire to have a word.
    Ms. Roper. What you have to understand is the RAND study 
was commissioned at the request of then-Commissioner Glassman 
at the SEC, because the SEC had already tried the disclosure 
route. As part of their fee-based brokerage account rule, they 
had tried to design a disclosure for broker-dealer ads and 
account statements that would help investors to understand when 
they were dealing with a broker, an adviser, and what the legal 
duty was. And they took that disclosure out and, thanks to 
Commissioner Glassman's insistence that they test it with 
investors, they did that testing. They found investors didn't 
understand it. They tried to redesign it. They tested it again.
    Disclosure does not work. You cannot solve through 
disclosure or through investor education a policy that doesn't 
make sense, and it will never make sense to investors that 
their financial adviser is a salesperson and their investment 
adviser is an adviser. You cannot make sense to investors out 
of the fact that one person offering personalized investment 
advice has a fiduciary duty to act in their best interests and 
another person offering the exact same service doesn't. 
Disclosure can be helpful, but it can't solve a basic 
regulatory breakdown.
    Mr. Green. Mr. Ketchum, let me quickly ask you a question. 
Do you believe that the SEC is overpenalizing and 
overinvestigating?
    Mr. Ketchum. No. I think the SEC is an agency that--
    Mr. Green. Since my time is running short, I will accept 
the ``no,'' and let me just go on to suggest that I have 
intelligence indicating that the SEC issued about $1 billion in 
penalties and FINRA fined members about $43 million last year. 
Similar budgets, similar issues. How do you cause persons who 
would have some consternation based upon a belief that FINRA is 
more lax than the SEC as evidenced by penalties imposed?
    Mr. Ketchum. Much of the SEC number reflects one case with 
respect to Goldman Sachs, in particular egregious and 
problematic activity. A variety of others reflect major 
industry cases from the credit crisis.
    We strongly believe that fines should discourage behavior 
and encourage far superior compliance, but fundamentally fines 
have to relate to the fact situation and the actions that you 
are bringing. We think if you look through the cases that we 
brought with respect to that, I think the fines were stiff, and 
they were appropriate.
    Mr. Green. Thank you very much, and I thank the entire 
panel.
    Thank you, Mr. Chairman.
    Chairman Garrett. The gentlelady from New York.
    Mrs. McCarthy of New York. Thank you, Mr. Chairman, and 
thank you for having this important hearing. I think it is very 
good for all of us to hear the testimony of everybody and to 
understand what we had done over a year ago.
    I am interested in Section 913 because I actually had a 
pretty large part in getting that in there, so I want to 
explore that a little bit.
    Earlier this year, I, along with about 28 of our New 
Democrats, as we call ourselves, sent a letter to the 
Department of Labor, the SEC, and the CFTC on this issue on 
Section 913. I happen to believe it is important to maintain 
investment choice, and I believe Congress showed this intent in 
Section 913 of the Dodd-Frank Act.
    I am concerned that the Department of Labor--and we have 
had hearings here in the Education Committee talking to the 
Secretary, but I do believe that what--the Department of 
Labor's board of fiduciary proposal will step on the toes of 
the SEC and ultimately increase the cost for the investors. 
That is my concern. I believe, as written, as of now, the 
selling exception in the DOL fiduciary proposal does not go far 
enough. In fact, it is counter to Congress' intent and the 
direction the SEC is likely to take based on the agency's 
findings.
    So, Mr. Taft, I will ask you, and certainly anyone else who 
wants to go in there, how will the DOL's current proposal and 
seller's exception impact investors and the market?
    Mr. Taft. I will just give--maybe focus on one area in 
which we believe the DOL's proposed rules will restrict client 
access to products, services, and advice and, as has already 
been alluded to, the issue with the DOL's proposal, which 
expands the definition of fiduciary, okay, and creates 
tremendous uncertainty on the part of industry participants as 
to when and when they won't be fiduciaries. We will default to 
the worst-case definition in order to defuse liability. And, 
secondly, it brings to bear upon the broker-dealer model the 
prohibited transaction elements of ERISA.
    In the case of Section 913, the SEC has the ability--I was 
talking about operationalizing a fiduciary duty through things 
like disclosure of conflicts and conflict management--to do 
things to allow brokers to continue to offer proprietary 
products, to continue to offer new issues of stocks and bonds, 
to continue to charge commissions for their services.
    Under the ERISA proposal, all those things would be 
prohibited transactions and would not be allowed. Now, most 
problematically, they would not be allowed in individual 
retirement accounts. And I would say all the financial 
institutions at this table and the industry, the bulk of their 
accounts, their client accounts are individual retirement 
accounts. Forty percent of the accounts at our firms are IRAs, 
and the predominance of those accounts are small when it comes 
to assets under management, and today the predominance of those 
accounts receive advice through a commission-based model.
    Under the DOL proposal, what would happen--and Barbara 
Roper alluded to this--is that, given the small size of those 
accounts and the extreme nature of the liability under the 
DOL's proposal, broker-dealers will exit that business, will no 
longer provide those services to those small clients unless 
they move to a fee-based model which already functions under a 
fiduciary approach that restricts access to products and 
services, cannot buy new issues of stocks, cannot buy new 
issues of bonds, and increases costs by as much as 50 percent 
on average, so increases costs, restricts access for exactly 
the kinds of investors that need it the most.
    Mrs. McCarthy of New York. One of the things that I think 
bothers a number of us is that, going back in last January, the 
Administration actually put out an Executive Order for the 
different organizations when they are working on an issue to 
work together. From the conversations that we have had and many 
meetings that we have had, I don't think that has happened, and 
that is why I am not letting this go until we hopefully come to 
some solution that is fair to our consumers. And I think that 
is where I am coming from.
    Gee, I only have a little bit longer. A short answer.
    But, Mr. Irwin, I know, listening to your testimony, we 
have been concerned about the frequency of examinations and the 
efficiency of the oversight investment investors. In 2010, I 
wrote to the NASAA, and they sent me back a very long response. 
What I am concerned about is anticipating a high volume of 
firms going from Federal to State regulation as a result of the 
threshold change within the Dodd-Frank Act. Does NASAA have a 
comprehensive database available for investors to research the 
examination enforcement process for each State as well as 
disciplining actions?
    I guess what I am saying is, one of the concerns we had 
even with going back with predatory lending was that one broker 
could leave the State, go into another State, and there was no 
way of checking it. Are we looking at for the States to come 
together for a database so we have that kind of information?
    Mr. Irwin. Absolutely, Congresswoman McCarthy. We realize 
that to take on this additional responsibility, it is going to 
take us continuing to work together as we do. There is a 
memorandum of understanding among the States that every State 
has signed in which we are planning on doing these kinds of 
things. We are streamlining exams, and improving our risk 
assessment so we can more strategically undertake those exams.
    NASAA is prepared to fund joint exams among different 
States. And, fraud doesn't stop at the border. In Pennsylvania, 
it goes into Ohio, West Virginia, etc. We are issuing cease and 
desist orders every 2 weeks for scams that are coming out of 
California. And we share those orders that we issue with all of 
the other States. We work together on many, many different 
levels. We are prepared to take on the additional 
responsibility.
    Mrs. McCarthy of New York. Would the States also--because 
most States are having fiscal difficulties, will you be able to 
handle the increased load, and financially would you be able to 
do it as the States go forward?
    Mr. Irwin. That is a great question.
    Different States are having different experiences. In 
Pennsylvania, we knew, because of the discussions over Dodd-
Frank early on, that we had to meet with our budget secretary 
and talk to the governor about the possibility that this was 
going to happen. And I am pleased to report that Governor 
Corbett in Pennsylvania has given us five additional examiners 
and additional accounting staff to deal with the more complex 
kinds of examinations we are going to have to undertake.
    Some States are not as fortunate. But the more exams that 
we do, unfortunately, the more fines emerge. It gives us--and 
those funds fall back into the States to increase our exams.
    We are net revenue generators in a big way for our States. 
Our budget in Pennsylvania, for example, is about $9 million. 
We last year gave $30 million back to the Commonwealth. We 
believe that the resources are there, and they just have to be 
given to us to be able to undertake our mandate.
    Mrs. McCarthy of New York. Thank you, and I want to thank 
all the witnesses for taking the time to be with us today.
    Mr. Chairman, thank you.
    Chairman Garrett. And I thank you for the question.
    I guess you can always find something wrong with an audit, 
though, right, to generate the fines?
    The gentleman from North Carolina is recognized for 
potentially the final word.
    Mr. Miller of North Carolina. Mr. Chairman, I will forgo 
questions, but do not get your hopes up that that will become a 
frequent occurrence.
    Chairman Garrett. Okay. At this time, we will recognize the 
ranking member for some documents that she wishes--
    Ms. Waters. What did he say?
    Chairman Garrett. He is forgoing questioning. You had some 
documents?
    Ms. Waters. I ask unanimous consent, Mr. Chairman, to enter 
several documents into the record: a statement from the Project 
on Government Oversight; a report from AARP; an article by 
Mercer Bullard, associate professor of law at the University of 
Mississippi; a statement from the Financial Planning Coalition; 
a letter to Congresswoman McCarthy from the North American 
Securities Administrators Association; and a letter to 
Secretary Hilda Solis from the New Democrats Coalition.
    Chairman Garrett. Without objection, it is so ordered.
    And I also seek unanimous consent with regard to statements 
from the Independent Insurance Agents & Brokers of America; 
from the National Association of Independent Broker/Dealers; 
from Paul Schott Stevens of the Investment Company Institute; 
from the Financial Services Roundtable; from The American 
College; from the Managed Funds Association; from The Bond 
Dealers of America; from the American Council of Life Insurers 
(ACLI); and I think that is about it.
    Without objection, it is so ordered.
    With that, I very much thank all the members of the 
subcommittee for their participation and their questioning and 
also very much appreciate this diverse panel that we had today 
and for all of your information and dialogue that we got from 
you today.
    The Chair notes that some members may have additional 
questions for these witnesses that they may wish to submit in 
writing. Without objection, the record will remain open for 30 
days for members to submit questions to these witnesses and to 
place their responses in the record.
    With that, this meeting is adjourned. Again, thank you.
    [Whereupon, at 12:40 p.m., the hearing was adjourned.]


                            A P P E N D I X



                           September 13, 2011


[GRAPHIC] [TIFF OMITTED] T2599.001

[GRAPHIC] [TIFF OMITTED] T2599.002

[GRAPHIC] [TIFF OMITTED] T2599.003

[GRAPHIC] [TIFF OMITTED] T2599.004

[GRAPHIC] [TIFF OMITTED] T2599.005

[GRAPHIC] [TIFF OMITTED] T2599.006

[GRAPHIC] [TIFF OMITTED] T2599.007

[GRAPHIC] [TIFF OMITTED] T2599.008

[GRAPHIC] [TIFF OMITTED] T2599.009

[GRAPHIC] [TIFF OMITTED] T2599.010

[GRAPHIC] [TIFF OMITTED] T2599.011

[GRAPHIC] [TIFF OMITTED] T2599.012

[GRAPHIC] [TIFF OMITTED] T2599.013

[GRAPHIC] [TIFF OMITTED] T2599.014

[GRAPHIC] [TIFF OMITTED] T2599.015

[GRAPHIC] [TIFF OMITTED] T2599.016

[GRAPHIC] [TIFF OMITTED] T2599.017

[GRAPHIC] [TIFF OMITTED] T2599.018

[GRAPHIC] [TIFF OMITTED] T2599.019

[GRAPHIC] [TIFF OMITTED] T2599.020

[GRAPHIC] [TIFF OMITTED] T2599.021

[GRAPHIC] [TIFF OMITTED] T2599.022

[GRAPHIC] [TIFF OMITTED] T2599.023

[GRAPHIC] [TIFF OMITTED] T2599.024

[GRAPHIC] [TIFF OMITTED] T2599.025

[GRAPHIC] [TIFF OMITTED] T2599.026

[GRAPHIC] [TIFF OMITTED] T2599.027

[GRAPHIC] [TIFF OMITTED] T2599.028

[GRAPHIC] [TIFF OMITTED] T2599.029

[GRAPHIC] [TIFF OMITTED] T2599.030

[GRAPHIC] [TIFF OMITTED] T2599.031

[GRAPHIC] [TIFF OMITTED] T2599.032

[GRAPHIC] [TIFF OMITTED] T2599.033

[GRAPHIC] [TIFF OMITTED] T2599.034

[GRAPHIC] [TIFF OMITTED] T2599.035

[GRAPHIC] [TIFF OMITTED] T2599.036

[GRAPHIC] [TIFF OMITTED] T2599.037

[GRAPHIC] [TIFF OMITTED] T2599.038

[GRAPHIC] [TIFF OMITTED] T2599.039

[GRAPHIC] [TIFF OMITTED] T2599.040

[GRAPHIC] [TIFF OMITTED] T2599.041

[GRAPHIC] [TIFF OMITTED] T2599.042

[GRAPHIC] [TIFF OMITTED] T2599.043

[GRAPHIC] [TIFF OMITTED] T2599.044

[GRAPHIC] [TIFF OMITTED] T2599.045

[GRAPHIC] [TIFF OMITTED] T2599.046

[GRAPHIC] [TIFF OMITTED] T2599.047

[GRAPHIC] [TIFF OMITTED] T2599.048

[GRAPHIC] [TIFF OMITTED] T2599.049

[GRAPHIC] [TIFF OMITTED] T2599.050

[GRAPHIC] [TIFF OMITTED] T2599.051

[GRAPHIC] [TIFF OMITTED] T2599.052

[GRAPHIC] [TIFF OMITTED] T2599.053

[GRAPHIC] [TIFF OMITTED] T2599.054

[GRAPHIC] [TIFF OMITTED] T2599.055

[GRAPHIC] [TIFF OMITTED] T2599.056

[GRAPHIC] [TIFF OMITTED] T2599.057

[GRAPHIC] [TIFF OMITTED] T2599.058

[GRAPHIC] [TIFF OMITTED] T2599.059

[GRAPHIC] [TIFF OMITTED] T2599.060

[GRAPHIC] [TIFF OMITTED] T2599.061

[GRAPHIC] [TIFF OMITTED] T2599.062

[GRAPHIC] [TIFF OMITTED] T2599.063

[GRAPHIC] [TIFF OMITTED] T2599.064

[GRAPHIC] [TIFF OMITTED] T2599.065

[GRAPHIC] [TIFF OMITTED] T2599.066

[GRAPHIC] [TIFF OMITTED] T2599.067

[GRAPHIC] [TIFF OMITTED] T2599.068

[GRAPHIC] [TIFF OMITTED] T2599.069

[GRAPHIC] [TIFF OMITTED] T2599.070

[GRAPHIC] [TIFF OMITTED] T2599.071

[GRAPHIC] [TIFF OMITTED] T2599.072

[GRAPHIC] [TIFF OMITTED] T2599.073

[GRAPHIC] [TIFF OMITTED] T2599.074

[GRAPHIC] [TIFF OMITTED] T2599.075

[GRAPHIC] [TIFF OMITTED] T2599.076

[GRAPHIC] [TIFF OMITTED] T2599.077

[GRAPHIC] [TIFF OMITTED] T2599.078

[GRAPHIC] [TIFF OMITTED] T2599.079

[GRAPHIC] [TIFF OMITTED] T2599.080

[GRAPHIC] [TIFF OMITTED] T2599.081

[GRAPHIC] [TIFF OMITTED] T2599.082

[GRAPHIC] [TIFF OMITTED] T2599.083

[GRAPHIC] [TIFF OMITTED] T2599.084

[GRAPHIC] [TIFF OMITTED] T2599.085

[GRAPHIC] [TIFF OMITTED] T2599.086

[GRAPHIC] [TIFF OMITTED] T2599.087

[GRAPHIC] [TIFF OMITTED] T2599.088

[GRAPHIC] [TIFF OMITTED] T2599.089

[GRAPHIC] [TIFF OMITTED] T2599.090

[GRAPHIC] [TIFF OMITTED] T2599.091

[GRAPHIC] [TIFF OMITTED] T2599.092

[GRAPHIC] [TIFF OMITTED] T2599.093

[GRAPHIC] [TIFF OMITTED] T2599.094

[GRAPHIC] [TIFF OMITTED] T2599.095

[GRAPHIC] [TIFF OMITTED] T2599.096

[GRAPHIC] [TIFF OMITTED] T2599.097

[GRAPHIC] [TIFF OMITTED] T2599.098

[GRAPHIC] [TIFF OMITTED] T2599.099

[GRAPHIC] [TIFF OMITTED] T2599.100

[GRAPHIC] [TIFF OMITTED] T2599.101

[GRAPHIC] [TIFF OMITTED] T2599.102

[GRAPHIC] [TIFF OMITTED] T2599.103

[GRAPHIC] [TIFF OMITTED] T2599.104

[GRAPHIC] [TIFF OMITTED] T2599.105

[GRAPHIC] [TIFF OMITTED] T2599.106

[GRAPHIC] [TIFF OMITTED] T2599.107

[GRAPHIC] [TIFF OMITTED] T2599.108

[GRAPHIC] [TIFF OMITTED] T2599.109

[GRAPHIC] [TIFF OMITTED] T2599.110

[GRAPHIC] [TIFF OMITTED] T2599.111

[GRAPHIC] [TIFF OMITTED] T2599.112

[GRAPHIC] [TIFF OMITTED] T2599.113

[GRAPHIC] [TIFF OMITTED] T2599.114

[GRAPHIC] [TIFF OMITTED] T2599.115

[GRAPHIC] [TIFF OMITTED] T2599.116

[GRAPHIC] [TIFF OMITTED] T2599.117

[GRAPHIC] [TIFF OMITTED] T2599.118

[GRAPHIC] [TIFF OMITTED] T2599.119

[GRAPHIC] [TIFF OMITTED] T2599.120

[GRAPHIC] [TIFF OMITTED] T2599.121

[GRAPHIC] [TIFF OMITTED] T2599.122

[GRAPHIC] [TIFF OMITTED] T2599.123

[GRAPHIC] [TIFF OMITTED] T2599.124

[GRAPHIC] [TIFF OMITTED] T2599.125

[GRAPHIC] [TIFF OMITTED] T2599.126

[GRAPHIC] [TIFF OMITTED] T2599.127

[GRAPHIC] [TIFF OMITTED] T2599.128

[GRAPHIC] [TIFF OMITTED] T2599.129

[GRAPHIC] [TIFF OMITTED] T2599.130

[GRAPHIC] [TIFF OMITTED] T2599.131

[GRAPHIC] [TIFF OMITTED] T2599.132

[GRAPHIC] [TIFF OMITTED] T2599.133

[GRAPHIC] [TIFF OMITTED] T2599.134

[GRAPHIC] [TIFF OMITTED] T2599.135

[GRAPHIC] [TIFF OMITTED] T2599.136

[GRAPHIC] [TIFF OMITTED] T2599.137

[GRAPHIC] [TIFF OMITTED] T2599.138

[GRAPHIC] [TIFF OMITTED] T2599.139

[GRAPHIC] [TIFF OMITTED] T2599.140

[GRAPHIC] [TIFF OMITTED] T2599.141

[GRAPHIC] [TIFF OMITTED] T2599.142

[GRAPHIC] [TIFF OMITTED] T2599.143

[GRAPHIC] [TIFF OMITTED] T2599.144

[GRAPHIC] [TIFF OMITTED] T2599.145

[GRAPHIC] [TIFF OMITTED] T2599.146

[GRAPHIC] [TIFF OMITTED] T2599.147

[GRAPHIC] [TIFF OMITTED] T2599.148

[GRAPHIC] [TIFF OMITTED] T2599.149

[GRAPHIC] [TIFF OMITTED] T2599.150

[GRAPHIC] [TIFF OMITTED] T2599.151

[GRAPHIC] [TIFF OMITTED] T2599.152

[GRAPHIC] [TIFF OMITTED] T2599.153

[GRAPHIC] [TIFF OMITTED] T2599.154

[GRAPHIC] [TIFF OMITTED] T2599.155

[GRAPHIC] [TIFF OMITTED] T2599.156

[GRAPHIC] [TIFF OMITTED] T2599.157

[GRAPHIC] [TIFF OMITTED] T2599.158

[GRAPHIC] [TIFF OMITTED] T2599.159

[GRAPHIC] [TIFF OMITTED] T2599.160

[GRAPHIC] [TIFF OMITTED] T2599.161

[GRAPHIC] [TIFF OMITTED] T2599.162

[GRAPHIC] [TIFF OMITTED] T2599.163

[GRAPHIC] [TIFF OMITTED] T2599.164

[GRAPHIC] [TIFF OMITTED] T2599.165

[GRAPHIC] [TIFF OMITTED] T2599.166

[GRAPHIC] [TIFF OMITTED] T2599.167

[GRAPHIC] [TIFF OMITTED] T2599.168

[GRAPHIC] [TIFF OMITTED] T2599.169

[GRAPHIC] [TIFF OMITTED] T2599.170

[GRAPHIC] [TIFF OMITTED] T2599.171

[GRAPHIC] [TIFF OMITTED] T2599.172

[GRAPHIC] [TIFF OMITTED] T2599.173

[GRAPHIC] [TIFF OMITTED] T2599.174

[GRAPHIC] [TIFF OMITTED] T2599.175

[GRAPHIC] [TIFF OMITTED] T2599.176

[GRAPHIC] [TIFF OMITTED] T2599.177

[GRAPHIC] [TIFF OMITTED] T2599.178

[GRAPHIC] [TIFF OMITTED] T2599.179

[GRAPHIC] [TIFF OMITTED] T2599.180

[GRAPHIC] [TIFF OMITTED] T2599.181

[GRAPHIC] [TIFF OMITTED] T2599.182

[GRAPHIC] [TIFF OMITTED] T2599.183

[GRAPHIC] [TIFF OMITTED] T2599.184

[GRAPHIC] [TIFF OMITTED] T2599.185

[GRAPHIC] [TIFF OMITTED] T2599.186

[GRAPHIC] [TIFF OMITTED] T2599.187

[GRAPHIC] [TIFF OMITTED] T2599.188

[GRAPHIC] [TIFF OMITTED] T2599.189

[GRAPHIC] [TIFF OMITTED] T2599.190

[GRAPHIC] [TIFF OMITTED] T2599.191

[GRAPHIC] [TIFF OMITTED] T2599.192

[GRAPHIC] [TIFF OMITTED] T2599.193

[GRAPHIC] [TIFF OMITTED] T2599.194

[GRAPHIC] [TIFF OMITTED] T2599.195

[GRAPHIC] [TIFF OMITTED] T2599.196

[GRAPHIC] [TIFF OMITTED] T2599.197

[GRAPHIC] [TIFF OMITTED] T2599.198

[GRAPHIC] [TIFF OMITTED] T2599.199

[GRAPHIC] [TIFF OMITTED] T2599.200

[GRAPHIC] [TIFF OMITTED] T2599.201

[GRAPHIC] [TIFF OMITTED] T2599.202

[GRAPHIC] [TIFF OMITTED] T2599.203

[GRAPHIC] [TIFF OMITTED] T2599.204

[GRAPHIC] [TIFF OMITTED] T2599.205

[GRAPHIC] [TIFF OMITTED] T2599.206

[GRAPHIC] [TIFF OMITTED] T2599.207

[GRAPHIC] [TIFF OMITTED] T2599.208

[GRAPHIC] [TIFF OMITTED] T2599.209

[GRAPHIC] [TIFF OMITTED] T2599.210

[GRAPHIC] [TIFF OMITTED] T2599.211

[GRAPHIC] [TIFF OMITTED] T2599.212

[GRAPHIC] [TIFF OMITTED] T2599.213

[GRAPHIC] [TIFF OMITTED] T2599.214

[GRAPHIC] [TIFF OMITTED] T2599.215

[GRAPHIC] [TIFF OMITTED] T2599.216

[GRAPHIC] [TIFF OMITTED] T2599.217

[GRAPHIC] [TIFF OMITTED] T2599.218

[GRAPHIC] [TIFF OMITTED] T2599.219

[GRAPHIC] [TIFF OMITTED] T2599.220

[GRAPHIC] [TIFF OMITTED] T2599.221

[GRAPHIC] [TIFF OMITTED] T2599.222

[GRAPHIC] [TIFF OMITTED] T2599.223

[GRAPHIC] [TIFF OMITTED] T2599.224

[GRAPHIC] [TIFF OMITTED] T2599.225

[GRAPHIC] [TIFF OMITTED] T2599.226

[GRAPHIC] [TIFF OMITTED] T2599.227

[GRAPHIC] [TIFF OMITTED] T2599.228

[GRAPHIC] [TIFF OMITTED] T2599.229

[GRAPHIC] [TIFF OMITTED] T2599.230

[GRAPHIC] [TIFF OMITTED] T2599.231

[GRAPHIC] [TIFF OMITTED] T2599.232

[GRAPHIC] [TIFF OMITTED] T2599.233

[GRAPHIC] [TIFF OMITTED] T2599.234

[GRAPHIC] [TIFF OMITTED] T2599.235

[GRAPHIC] [TIFF OMITTED] T2599.236

[GRAPHIC] [TIFF OMITTED] T2599.237

[GRAPHIC] [TIFF OMITTED] T2599.238

[GRAPHIC] [TIFF OMITTED] T2599.239

[GRAPHIC] [TIFF OMITTED] T2599.240

[GRAPHIC] [TIFF OMITTED] T2599.241

[GRAPHIC] [TIFF OMITTED] T2599.242

[GRAPHIC] [TIFF OMITTED] T2599.243

[GRAPHIC] [TIFF OMITTED] T2599.244

[GRAPHIC] [TIFF OMITTED] T2599.245

[GRAPHIC] [TIFF OMITTED] T2599.246

[GRAPHIC] [TIFF OMITTED] T2599.247

[GRAPHIC] [TIFF OMITTED] T2599.248

[GRAPHIC] [TIFF OMITTED] T2599.249

[GRAPHIC] [TIFF OMITTED] T2599.250

[GRAPHIC] [TIFF OMITTED] T2599.251

[GRAPHIC] [TIFF OMITTED] T2599.252

[GRAPHIC] [TIFF OMITTED] T2599.253

[GRAPHIC] [TIFF OMITTED] T2599.254

[GRAPHIC] [TIFF OMITTED] T2599.255

[GRAPHIC] [TIFF OMITTED] T2599.256

[GRAPHIC] [TIFF OMITTED] T2599.257

[GRAPHIC] [TIFF OMITTED] T2599.258

[GRAPHIC] [TIFF OMITTED] T2599.259

[GRAPHIC] [TIFF OMITTED] T2599.260

[GRAPHIC] [TIFF OMITTED] T2599.261

[GRAPHIC] [TIFF OMITTED] T2599.262

[GRAPHIC] [TIFF OMITTED] T2599.263

[GRAPHIC] [TIFF OMITTED] T2599.264

[GRAPHIC] [TIFF OMITTED] T2599.265

[GRAPHIC] [TIFF OMITTED] T2599.266

[GRAPHIC] [TIFF OMITTED] T2599.267

[GRAPHIC] [TIFF OMITTED] T2599.268

[GRAPHIC] [TIFF OMITTED] T2599.269

[GRAPHIC] [TIFF OMITTED] T2599.270

[GRAPHIC] [TIFF OMITTED] T2599.271

[GRAPHIC] [TIFF OMITTED] T2599.272

[GRAPHIC] [TIFF OMITTED] T2599.273

[GRAPHIC] [TIFF OMITTED] T2599.274

[GRAPHIC] [TIFF OMITTED] T2599.275

[GRAPHIC] [TIFF OMITTED] T2599.276

[GRAPHIC] [TIFF OMITTED] T2599.277

[GRAPHIC] [TIFF OMITTED] T2599.278

[GRAPHIC] [TIFF OMITTED] T2599.279

[GRAPHIC] [TIFF OMITTED] T2599.280

[GRAPHIC] [TIFF OMITTED] T2599.281

[GRAPHIC] [TIFF OMITTED] T2599.282

[GRAPHIC] [TIFF OMITTED] T2599.283

[GRAPHIC] [TIFF OMITTED] T2599.284

[GRAPHIC] [TIFF OMITTED] T2599.285

[GRAPHIC] [TIFF OMITTED] T2599.286

[GRAPHIC] [TIFF OMITTED] T2599.287

[GRAPHIC] [TIFF OMITTED] T2599.288

[GRAPHIC] [TIFF OMITTED] T2599.289

[GRAPHIC] [TIFF OMITTED] T2599.290

[GRAPHIC] [TIFF OMITTED] T2599.291

[GRAPHIC] [TIFF OMITTED] T2599.292

[GRAPHIC] [TIFF OMITTED] T2599.293

[GRAPHIC] [TIFF OMITTED] T2599.294

[GRAPHIC] [TIFF OMITTED] T2599.295

[GRAPHIC] [TIFF OMITTED] T2599.296

[GRAPHIC] [TIFF OMITTED] T2599.297

[GRAPHIC] [TIFF OMITTED] T2599.298

[GRAPHIC] [TIFF OMITTED] T2599.299

[GRAPHIC] [TIFF OMITTED] T2599.300

[GRAPHIC] [TIFF OMITTED] T2599.301

[GRAPHIC] [TIFF OMITTED] T2599.302

[GRAPHIC] [TIFF OMITTED] T2599.303

[GRAPHIC] [TIFF OMITTED] T2599.304

[GRAPHIC] [TIFF OMITTED] T2599.305

[GRAPHIC] [TIFF OMITTED] T2599.306

[GRAPHIC] [TIFF OMITTED] T2599.307

[GRAPHIC] [TIFF OMITTED] T2599.308

[GRAPHIC] [TIFF OMITTED] T2599.309

[GRAPHIC] [TIFF OMITTED] T2599.310

[GRAPHIC] [TIFF OMITTED] T2599.311

[GRAPHIC] [TIFF OMITTED] T2599.312

[GRAPHIC] [TIFF OMITTED] T2599.313

[GRAPHIC] [TIFF OMITTED] T2599.314

[GRAPHIC] [TIFF OMITTED] T2599.315

[GRAPHIC] [TIFF OMITTED] T2599.316

[GRAPHIC] [TIFF OMITTED] T2599.317

[GRAPHIC] [TIFF OMITTED] T2599.318

[GRAPHIC] [TIFF OMITTED] T2599.319

[GRAPHIC] [TIFF OMITTED] T2599.320

[GRAPHIC] [TIFF OMITTED] T2599.321

[GRAPHIC] [TIFF OMITTED] T2599.322

[GRAPHIC] [TIFF OMITTED] T2599.323

[GRAPHIC] [TIFF OMITTED] T2599.324

[GRAPHIC] [TIFF OMITTED] T2599.325

[GRAPHIC] [TIFF OMITTED] T2599.326

[GRAPHIC] [TIFF OMITTED] T2599.327

[GRAPHIC] [TIFF OMITTED] T2599.328

[GRAPHIC] [TIFF OMITTED] T2599.329

[GRAPHIC] [TIFF OMITTED] T2599.330

[GRAPHIC] [TIFF OMITTED] T2599.331

[GRAPHIC] [TIFF OMITTED] T2599.332

[GRAPHIC] [TIFF OMITTED] T2599.333

[GRAPHIC] [TIFF OMITTED] T2599.334

[GRAPHIC] [TIFF OMITTED] T2599.335

[GRAPHIC] [TIFF OMITTED] T2599.336

[GRAPHIC] [TIFF OMITTED] T2599.337

[GRAPHIC] [TIFF OMITTED] T2599.338

[GRAPHIC] [TIFF OMITTED] T2599.339

[GRAPHIC] [TIFF OMITTED] T2599.340

[GRAPHIC] [TIFF OMITTED] T2599.341

[GRAPHIC] [TIFF OMITTED] T2599.342

[GRAPHIC] [TIFF OMITTED] T2599.343

[GRAPHIC] [TIFF OMITTED] T2599.344

[GRAPHIC] [TIFF OMITTED] T2599.345

[GRAPHIC] [TIFF OMITTED] T2599.346

[GRAPHIC] [TIFF OMITTED] T2599.347

[GRAPHIC] [TIFF OMITTED] T2599.348

[GRAPHIC] [TIFF OMITTED] T2599.349

[GRAPHIC] [TIFF OMITTED] T2599.350

[GRAPHIC] [TIFF OMITTED] T2599.351

[GRAPHIC] [TIFF OMITTED] T2599.352

[GRAPHIC] [TIFF OMITTED] T2599.353

[GRAPHIC] [TIFF OMITTED] T2599.354

[GRAPHIC] [TIFF OMITTED] T2599.355

[GRAPHIC] [TIFF OMITTED] T2599.356

[GRAPHIC] [TIFF OMITTED] T2599.357

[GRAPHIC] [TIFF OMITTED] T2599.358

[GRAPHIC] [TIFF OMITTED] T2599.359

[GRAPHIC] [TIFF OMITTED] T2599.360

[GRAPHIC] [TIFF OMITTED] T2599.361

[GRAPHIC] [TIFF OMITTED] T2599.362

[GRAPHIC] [TIFF OMITTED] T2599.363

[GRAPHIC] [TIFF OMITTED] T2599.364

[GRAPHIC] [TIFF OMITTED] T2599.365

[GRAPHIC] [TIFF OMITTED] T2599.366

[GRAPHIC] [TIFF OMITTED] T2599.367

[GRAPHIC] [TIFF OMITTED] T2599.368

[GRAPHIC] [TIFF OMITTED] T2599.369

[GRAPHIC] [TIFF OMITTED] T2599.370

[GRAPHIC] [TIFF OMITTED] T2599.371

[GRAPHIC] [TIFF OMITTED] T2599.372

[GRAPHIC] [TIFF OMITTED] T2599.373

[GRAPHIC] [TIFF OMITTED] T2599.374

[GRAPHIC] [TIFF OMITTED] T2599.375

[GRAPHIC] [TIFF OMITTED] T2599.376

[GRAPHIC] [TIFF OMITTED] T2599.377

[GRAPHIC] [TIFF OMITTED] T2599.378

[GRAPHIC] [TIFF OMITTED] T2599.379

[GRAPHIC] [TIFF OMITTED] T2599.380

[GRAPHIC] [TIFF OMITTED] T2599.381

[GRAPHIC] [TIFF OMITTED] T2599.382

[GRAPHIC] [TIFF OMITTED] T2599.383

[GRAPHIC] [TIFF OMITTED] T2599.384

[GRAPHIC] [TIFF OMITTED] T2599.385

[GRAPHIC] [TIFF OMITTED] T2599.386

[GRAPHIC] [TIFF OMITTED] T2599.387

[GRAPHIC] [TIFF OMITTED] T2599.388

[GRAPHIC] [TIFF OMITTED] T2599.389

[GRAPHIC] [TIFF OMITTED] T2599.390

[GRAPHIC] [TIFF OMITTED] T2599.391

[GRAPHIC] [TIFF OMITTED] T2599.392

[GRAPHIC] [TIFF OMITTED] T2599.393

[GRAPHIC] [TIFF OMITTED] T2599.394

[GRAPHIC] [TIFF OMITTED] T2599.395

[GRAPHIC] [TIFF OMITTED] T2599.396

[GRAPHIC] [TIFF OMITTED] T2599.397

[GRAPHIC] [TIFF OMITTED] T2599.398

[GRAPHIC] [TIFF OMITTED] T2599.399

[GRAPHIC] [TIFF OMITTED] T2599.400

[GRAPHIC] [TIFF OMITTED] T2599.401

[GRAPHIC] [TIFF OMITTED] T2599.402

[GRAPHIC] [TIFF OMITTED] T2599.403

[GRAPHIC] [TIFF OMITTED] T2599.404

[GRAPHIC] [TIFF OMITTED] T2599.405

[GRAPHIC] [TIFF OMITTED] T2599.406

[GRAPHIC] [TIFF OMITTED] T2599.407

[GRAPHIC] [TIFF OMITTED] T2599.408

[GRAPHIC] [TIFF OMITTED] T2599.409

[GRAPHIC] [TIFF OMITTED] T2599.410

[GRAPHIC] [TIFF OMITTED] T2599.411

[GRAPHIC] [TIFF OMITTED] T2599.412

[GRAPHIC] [TIFF OMITTED] T2599.413

[GRAPHIC] [TIFF OMITTED] T2599.414

[GRAPHIC] [TIFF OMITTED] T2599.415

[GRAPHIC] [TIFF OMITTED] T2599.416

[GRAPHIC] [TIFF OMITTED] T2599.417

[GRAPHIC] [TIFF OMITTED] T2599.418

[GRAPHIC] [TIFF OMITTED] T2599.419

[GRAPHIC] [TIFF OMITTED] T2599.420

[GRAPHIC] [TIFF OMITTED] T2599.421

[GRAPHIC] [TIFF OMITTED] T2599.422

[GRAPHIC] [TIFF OMITTED] T2599.423

[GRAPHIC] [TIFF OMITTED] T2599.424

[GRAPHIC] [TIFF OMITTED] T2599.425

[GRAPHIC] [TIFF OMITTED] T2599.426

[GRAPHIC] [TIFF OMITTED] T2599.427

[GRAPHIC] [TIFF OMITTED] T2599.428

[GRAPHIC] [TIFF OMITTED] T2599.429

[GRAPHIC] [TIFF OMITTED] T2599.430

[GRAPHIC] [TIFF OMITTED] T2599.431

[GRAPHIC] [TIFF OMITTED] T2599.432

[GRAPHIC] [TIFF OMITTED] T2599.433

[GRAPHIC] [TIFF OMITTED] T2599.434

[GRAPHIC] [TIFF OMITTED] T2599.435

[GRAPHIC] [TIFF OMITTED] T2599.436

[GRAPHIC] [TIFF OMITTED] T2599.437

[GRAPHIC] [TIFF OMITTED] T2599.438

[GRAPHIC] [TIFF OMITTED] T2599.439

[GRAPHIC] [TIFF OMITTED] T2599.440

[GRAPHIC] [TIFF OMITTED] T2599.441

[GRAPHIC] [TIFF OMITTED] T2599.442

[GRAPHIC] [TIFF OMITTED] T2599.443

[GRAPHIC] [TIFF OMITTED] T2599.444

[GRAPHIC] [TIFF OMITTED] T2599.445

[GRAPHIC] [TIFF OMITTED] T2599.446

[GRAPHIC] [TIFF OMITTED] T2599.447

[GRAPHIC] [TIFF OMITTED] T2599.448

[GRAPHIC] [TIFF OMITTED] T2599.449

[GRAPHIC] [TIFF OMITTED] T2599.450

[GRAPHIC] [TIFF OMITTED] T2599.451

[GRAPHIC] [TIFF OMITTED] T2599.452

[GRAPHIC] [TIFF OMITTED] T2599.453

[GRAPHIC] [TIFF OMITTED] T2599.454

[GRAPHIC] [TIFF OMITTED] T2599.455

[GRAPHIC] [TIFF OMITTED] T2599.456

[GRAPHIC] [TIFF OMITTED] T2599.457

[GRAPHIC] [TIFF OMITTED] T2599.458

[GRAPHIC] [TIFF OMITTED] T2599.459

[GRAPHIC] [TIFF OMITTED] T2599.460

[GRAPHIC] [TIFF OMITTED] T2599.461

[GRAPHIC] [TIFF OMITTED] T2599.462

[GRAPHIC] [TIFF OMITTED] T2599.463

[GRAPHIC] [TIFF OMITTED] T2599.464

[GRAPHIC] [TIFF OMITTED] T2599.465

[GRAPHIC] [TIFF OMITTED] T2599.466

[GRAPHIC] [TIFF OMITTED] T2599.467

[GRAPHIC] [TIFF OMITTED] T2599.468

[GRAPHIC] [TIFF OMITTED] T2599.469

[GRAPHIC] [TIFF OMITTED] T2599.470

[GRAPHIC] [TIFF OMITTED] T2599.471

[GRAPHIC] [TIFF OMITTED] T2599.472

[GRAPHIC] [TIFF OMITTED] T2599.473

[GRAPHIC] [TIFF OMITTED] T2599.474

[GRAPHIC] [TIFF OMITTED] T2599.475

[GRAPHIC] [TIFF OMITTED] T2599.476

[GRAPHIC] [TIFF OMITTED] T2599.477

[GRAPHIC] [TIFF OMITTED] T2599.478

[GRAPHIC] [TIFF OMITTED] T2599.479

[GRAPHIC] [TIFF OMITTED] T2599.480

[GRAPHIC] [TIFF OMITTED] T2599.481

[GRAPHIC] [TIFF OMITTED] T2599.482

[GRAPHIC] [TIFF OMITTED] T2599.483

[GRAPHIC] [TIFF OMITTED] T2599.484

[GRAPHIC] [TIFF OMITTED] T2599.485

[GRAPHIC] [TIFF OMITTED] T2599.486

[GRAPHIC] [TIFF OMITTED] T2599.487

[GRAPHIC] [TIFF OMITTED] T2599.488

[GRAPHIC] [TIFF OMITTED] T2599.489

[GRAPHIC] [TIFF OMITTED] T2599.490

[GRAPHIC] [TIFF OMITTED] T2599.491

[GRAPHIC] [TIFF OMITTED] T2599.492

[GRAPHIC] [TIFF OMITTED] T2599.493

[GRAPHIC] [TIFF OMITTED] T2599.494

[GRAPHIC] [TIFF OMITTED] T2599.495

[GRAPHIC] [TIFF OMITTED] T2599.496

[GRAPHIC] [TIFF OMITTED] T2599.497

[GRAPHIC] [TIFF OMITTED] T2599.498

[GRAPHIC] [TIFF OMITTED] T2599.499

[GRAPHIC] [TIFF OMITTED] T2599.500

[GRAPHIC] [TIFF OMITTED] T2599.501

[GRAPHIC] [TIFF OMITTED] T2599.502

[GRAPHIC] [TIFF OMITTED] T2599.503

[GRAPHIC] [TIFF OMITTED] T2599.504

[GRAPHIC] [TIFF OMITTED] T2599.505

[GRAPHIC] [TIFF OMITTED] T2599.506

[GRAPHIC] [TIFF OMITTED] T2599.507

[GRAPHIC] [TIFF OMITTED] T2599.508

[GRAPHIC] [TIFF OMITTED] T2599.509

[GRAPHIC] [TIFF OMITTED] T2599.510

[GRAPHIC] [TIFF OMITTED] T2599.511

[GRAPHIC] [TIFF OMITTED] T2599.512

[GRAPHIC] [TIFF OMITTED] T2599.513

[GRAPHIC] [TIFF OMITTED] T2599.514

[GRAPHIC] [TIFF OMITTED] T2599.515

[GRAPHIC] [TIFF OMITTED] T2599.516

[GRAPHIC] [TIFF OMITTED] T2599.517

[GRAPHIC] [TIFF OMITTED] T2599.518

[GRAPHIC] [TIFF OMITTED] T2599.519

[GRAPHIC] [TIFF OMITTED] T2599.520

[GRAPHIC] [TIFF OMITTED] T2599.521

[GRAPHIC] [TIFF OMITTED] T2599.522


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
